APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Third Circuit
(February 11, 2021) . . . . . . . . . . . App. 1
Appendix B Memorandum in the United States
District Court for the Eastern District
of Pennsylvania
(July 31, 2019). . . . . . . . . . . . . . . App. 18
Appendix C Order in the United States District
Court for the Eastern District of
Pennsylvania
(July 31, 2019). . . . . . . . . . . . . . . App. 83
Appendix D Order Denying Rehearing in the
United States Court of Appeals for the
Third Circuit
(April 15, 2021) . . . . . . . . . . . . . . App. 84
Appendix E First Amended Complaint in the in
the United States District Court for
the Eastern District of Pennsylvania
(May 10, 2019). . . . . . . . . . . . . . . App. 86
Appendix F Petition for Panel Rehearing and
Rehearing En Banc in the United
States Court of Appeals for the Third
Circuit
(March 25, 2021) . . . . . . . . . . . . App. 111

App. 1

APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2816
[Filed: February 11, 2021]
__________________________________________
ELIAS KARKALAS,
)
Appellant
)
)
v.
)
)
LINDA MARKS, Esquire; KIMBERLY
)
BRILL; UNITED STATES OF AMERICA
)
__________________________________________)
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civ. No. 2-19-cv-00948)
District Judge: Honorable Mark A. Kearney
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
March 12, 2020
Before: McKEE, AMBRO, and PHIPPS, Circuit
Judges
(Filed: February 11, 2021)

App. 2
OPINION*
PHIPPS, Circuit Judge.
For over thirty years, Dr. Elias Karkalas was a
family practice physician in a Philadelphia suburb. He
also had an interest in cyber medicine, and in 2005, he
responded to a recruiter’s advertisement seeking
doctors to review online prescription requests for an
internet pharmacy company, Rx Limited. At that time,
Rx Limited was operated by Paul Calder Le Roux, who
would later plead guilty to several criminal charges
related to the company’s practices. Karkalas began
working for Rx Limited, and between 2005 and 2012,
he approved online prescriptions for several drugs. As
he did so, he understood that federal law required an
in-person encounter to prescribe a controlled substance.
See 21 U.S.C. §§ 829(b), (e); 21 C.F.R. § 1306.04(a).
One drug that Karkalas prescribed online was
Fioricet – a combination drug used to treat tension
headaches. Although Fioricet is not expressly listed as
a controlled substance, it contains butalbital, a
derivative of barbituric acid, which is listed as a
controlled substance. 21 U.S.C. § 812, Sch. III(b)(1)
(designating “[a]ny substance which contains any
quantity of a derivative of barbituric acid” as a
Schedule III controlled substance); 21 C.F.R.
§ 1308.13(c)(3) (same). Nevertheless, the Physicians’
Desk Reference, a reference manual for prescribers, did

*

This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

App. 3
not designate Fioricet as a controlled substance during
the years in which Karkalas prescribed it.1
Karkalas’s online approval of Fioricet prescriptions
caught the attention of a diversion investigator at the
Drug Enforcement Administration and a federal
prosecutor who were investigating Rx Limited. They
both believed that, under federal law, Fioricet
constituted a controlled substance because it contained
butalbital. Through an undercover investigation, they
learned that Karkalas was prescribing Fioricet online
not just for tension headaches but also for other
maladies such as knee pain and hemorrhoids.
In 2013, a federal grand jury in Minnesota returned
an 85-count indictment related to Rx Limited against
eleven defendants. It named Karkalas in 38 counts.
Many of those counts related to the illegal distribution
of Fioricet, see 21 U.S.C. §§ 841(a)(1), (b)(1)(E), (h)(1),
(h)(4), but the indictment also charged Karkalas with
conspiracy, wire fraud, mail fraud, and introducing
misbranded drugs into interstate commerce. Karkalas
was arrested at his office and detained pretrial for six
months, including four-and-a-half months in detention
centers in multiple states and six weeks in a halfway
house. He was later released to home confinement with
an ankle monitor.

1

The Physicians’ Desk Reference currently identifies Fioricet as a
Schedule III controlled substance. See Fioricet Capsules Drug
Summary, Prescribers’ Digital Reference, https://www.pdr.net/
drug-summary/Fioricet-Capsules-acetaminophen-butalbitalcaffeine-3284.2260 (last visited Feb. 9, 2021).

App. 4
Throughout the pretrial period, Karkalas asserted
that Fioricet was not a controlled substance. He
emailed and called the prosecutor and investigator, and
he even voluntarily traveled to Washington, D.C. to
meet with them, but they were unconvinced. Karkalas
also filed motions in the Minnesota trial court to
dismiss the Fioricet charges and to exclude evidence of
his distribution of Fioricet. But that court denied both
motions, concluding that Fioricet – because it contains
butalbital – is a Schedule III controlled substance. See
United States v. Oz, 2017 WL 342069, at *2, *3–5 (D.
Minn. Jan. 23, 2017) (citing 21 U.S.C. § 812, Sch.
III(b)(1)); United States v. Oz, 2016 WL 1183041, at *2,
*4–6 (D. Minn. Mar. 28, 2016). Despite prevailing on
those motions, the United States voluntarily dismissed
ten of the charges against Karkalas related to his
distribution of Fioricet.
The case against Karkalas and three other
defendants proceeded to a jury trial, and there it
continued to turn in his favor. In the middle of its
case-in-chief, the United States dropped the remaining
charges related to the distribution of Fioricet. And in
returning its verdict, the jury acquitted Karkalas and
the other defendants of all other charges.
To vindicate himself beyond that acquittal,
Karkalas filed this two-count civil lawsuit in the
Eastern District of Pennsylvania. In Count One of the
complaint, Karkalas asserts that the prosecutor and
investigator violated his Fourth and Fifth Amendment
rights by knowingly presenting false and misleading
testimony and by prosecuting him without probable
cause, leading to his unlawful pretrial detention. In

App. 5
Count Two, Karkalas sues the United States for
malicious prosecution under the Federal Tort Claims
Act.
The defendants moved to dismiss the counts against
them – the prosecutor and investigator pursuant to
Federal Rules of Civil Procedure 12(b)(2), 12(b)(3), and
12(b)(6), and the United States pursuant to Rules
12(b)(1) and 12(b)(6). The District Court granted those
motions on several alternative grounds and dismissed
Karkalas’s amended complaint with prejudice. In doing
so, the District Court exercised subject-matter
jurisdiction over the federal questions in Count One,
see 28 U.S.C. § 1331, but determined that it lacked
personal jurisdiction over the individual defendants. In
addition, the District Court determined that no Bivens
cause of action could be implied against those
defendants, who were also shielded from suit due to
qualified immunity (and the prosecutor further
protected by absolute immunity). On Count Two, the
District Court concluded that it lacked jurisdiction due
to the United States’ sovereign immunity for
discretionary functions and for intentional torts (the
latter as to only the conduct of the prosecutor). See id.
§§ 1346(b)(1), 2674, 2680(a), (h).
Karkalas timely appealed, bringing the case within
this Court’s appellate jurisdiction. See 28 U.S.C.
§ 1291. The individual defendants no longer press the
personal jurisdiction defense, see Appellees’ Br. 15 n.3,
thereby consenting to such jurisdiction. See Danziger &
De Llano, LLP v. Morgan Verkamp LLC, 948 F.3d 124,
129 (3d Cir. 2020) (“A defendant may . . . consent to
personal jurisdiction by waiving any objection to it.”

App. 6
(citing Ins. Corp. of Ir., Ltd. v. Compagnie des Bauxites
de Guinee, 456 U.S. 694, 703 (1982))). They have
preserved and presented their other defenses. In
reviewing the dismissal of the complaint de novo, see
Buck v. Hampton Twp. Sch. Dist., 452 F.3d 256, 260
(3d Cir. 2006), we will affirm the District Court’s
judgment.
I.
In Count One, Karkalas sues the prosecutor and the
investigator in their individual capacities, seeking to
recover damages. He does so through a judicially
implied cause of action, a Bivens claim, which permits
a damages remedy for a person whose constitutional
rights have been violated by agents of the federal
government. See Ziglar v. Abbasi, 137 S. Ct. 1843, 1854
(2017). See generally Bivens v. Six Unknown Named
Agents of Fed. Bureau of Narcotics, 403 U.S. 388
(1971). In response, the individual defendants argue
that a Bivens action is unavailable in this context, that
the prosecutor qualifies for absolute immunity, and
that both defendants are entitled to qualified
immunity. The last of those arguments – qualified
immunity – is the most natural starting place because
it is common to both individual defendants and because
it proves dispositive.
Qualified immunity shields government officials
from liability for civil damages so long as “their conduct
does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.” Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982); see also District of Columbia v. Wesby,
138 S. Ct. 577, 589 (2018); El v. City of Pittsburgh, 975

App. 7
F.3d 327, 334 (3d Cir. 2020). At the motion-to-dismiss
stage, courts evaluate qualified immunity for a
constitutional claim by examining (i) whether the
complaint contains plausible allegations of a
constitutional violation and (ii) whether the asserted
constitutional right is clearly established. See Wood v.
Moss, 572 U.S. 744, 757 (2014) (citing Ashcroft v.
al-Kidd, 563 U.S. 731, 735 (2011)); see also Conn v.
Gabbert, 526 U.S. 286, 290 (1999) (explaining that the
qualified immunity inquiry requires “a court [to]
determine whether the plaintiff has alleged the
deprivation of an actual constitutional right at all”).
To evaluate the first prong of qualified immunity on
a motion to dismiss, this Court follows a three-step
plausibility inquiry. See Connelly v. Lane Constr. Corp.,
809 F.3d 780, 787 (3d Cir. 2016); see also Pearson v.
Callahan, 555 U.S. 223, 236 (2009) (noting that “it is
often beneficial” for courts to address the two prongs of
the qualified immunity analysis in order, even though
it is no longer mandatory). The first step involves an
articulation of the elements of the claim. See Connelly,
809 F.3d at 787 (citing Ashcroft v. Iqbal, 556 U.S. 662,
675 (2009)). The second step scrutinizes the complaint
to identify and disregard any ‘“formulaic recitation of
the elements of a . . . claim’ or other legal conclusion,”
id. at 789 (quoting Iqbal, 556 U.S. at 681), as well as
allegations that “while not stating ultimate legal
conclusions, are nevertheless so threadbare or
speculative that they fail to cross the line between the
conclusory and the factual,” id. at 790 (quoting
Peñalbert-Rosa v. Fortuño-Burset, 631 F.3d 592, 595
(1st Cir. 2011)). The third step evaluates the
plausibility of the remaining allegations – after first

App. 8
assuming their veracity, construing them in the light
most favorable to the plaintiff, and drawing all
reasonable inferences in the plaintiff’s favor. See id. at
787, 790; see also Iqbal, 556 U.S. at 679; Fowler v.
UPMC Shadyside, 578 F.3d 203, 211 (3d Cir. 2009). At
that point, if a complaint alleges “enough fact[s] to
raise a reasonable expectation that discovery will
reveal evidence of” the necessary elements of a claim,
then it plausibly pleads a claim. Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 556 (2007); see also Phillips v.
County of Allegheny, 515 F.3d 224, 234 (3d Cir. 2008).
But if “a complaint pleads facts that are merely
consistent with a defendant’s liability, it stops short of
the line between possibility and plausibility of
entitlement to relief.” Iqbal, 556 U.S. at 678 (internal
quotation marks omitted) (quoting Twombly, 550 U.S.
at 557).
As set forth below, under this plausibility analysis,
Karkalas fails to state a claim for a constitutional
violation under Count One. And because the complaint
fails to plausibly allege that the prosecutor or
investigator violated Karkalas’s constitutional rights,
those individual defendants are entitled to qualified
immunity. That conclusion renders unnecessary an
analysis of the second prong of qualified immunity, as
well as the other defenses related to absolute immunity
and the unavailability of a Bivens action in this
context. See Wood, 572 U.S. at 757 (assuming without
deciding that a Bivens cause of action is available and
resolving based on qualified immunity); Hui v.
Castaneda, 559 U.S. 799, 807 (2010) (“Even in
circumstances in which a Bivens remedy is generally

App. 9
available, an action under Bivens will be defeated if the
defendant is immune from suit.”).
A.
Karkalas first brings a Fourth Amendment
malicious prosecution claim against the individual
defendants. See Manuel v. City of Joliet, 137 S. Ct. 911,
919 (2017) (“If the complaint is that a form of legal
process resulted in pretrial detention unsupported by
probable cause, then the right allegedly infringed lies
in the Fourth Amendment.”). Under the three-step
plausibility inquiry, he fails to allege a violation of the
Fourth Amendment.
1. Articulation of the elements. A claim for Fourth
Amendment malicious prosecution consists of the
following elements:
(1)

the defendant
proceeding;

initiated

a

criminal

(2)

without probable cause;

(3)

maliciously or for a purpose other than
bringing the plaintiff to justice;

(4)

causing the plaintiff to suffer a deprivation of
liberty consistent with the concept of seizure;
and

(5)

the outcome of the criminal proceeding
favored the plaintiff.

See Harvard v. Cesnalis, 973 F.3d 190, 203 (3d Cir.
2020) (citation omitted); see also Black v. Montgomery

App. 10
County, 835 F.3d 358, 364 (3d Cir. 2016) (citation
omitted).
2. Identification of deficient allegations. Several of
Karkalas’s conclusory allegations should be
disregarded. In particular, Karkalas alleges that the
individual defendants made “knowingly false
presentations” to the grand jury, namely, (i) that
Fioricet is a controlled medication, (ii) that Karkalas
knew so, and (iii) that he would continue to prescribe
it. First Amended Complaint ¶ 86 (App. 77). But grand
jury proceedings are shrouded in secrecy. See Fed. R.
Crim. P. 6(e)(2)(B); see also Rehberg v. Paulk, 566 U.S.
356, 374 (2012) (“We consistently have recognized that
the proper functioning of our grand jury system
depends upon the secrecy of grand jury proceedings.”
(citations omitted)); United States v. Smith, 123 F.3d
140, 148 (3d Cir. 1997) (“Fed. R. Crim. P. 6(e) is
intended to preserve the tradition of grand jury
secrecy, creating a general rule of confidentiality for all
‘matters occurring before the grand jury.’”). And the
complaint nowhere indicates how Karkalas became
privy to this secret information. See District Ct. Op. 32
(App. 32) (“Given the secrecy of the grand jury
proceeding, we question how Dr. Karkalas knows what
[the prosecutor and investigator] told the grand jury
. . . .”). Without providing a factual basis for his
purported knowledge of the grand jury proceedings,
Karkalas’s allegations that the individual defendants
made false statements to the grand jury are
“speculative” and “threadbare.” Connelly, 809 F.3d at
790; see also Oliver v. Roquet, 858 F.3d 180, 192 (3d
Cir. 2017) (“[A] plaintiff’s allegations ‘must be enough
to raise a right to relief above the speculative level,’

App. 11
and must reflect ‘more than a sheer possibility that a
defendant has acted unlawfully.’” (quoting Twombly,
550 U.S. at 555, and Iqbal, 556 U.S. at 678));
Peñalbert-Rosa, 631 F.3d at 595–96 (“[S]ometimes a
threadbare factual allegation bears insignia of its
speculative character and, absent greater concreteness,
invites an early challenge.”). As such, those allegations
must be excluded from the plausibility analysis.
Similarly, the complaint alleges that the prosecutor
and investigator acted “with malice” in initiating the
criminal proceeding against Karkalas. First Amended
Complaint ¶ 88 (App. 78). But without supporting
factual allegations, that is nothing more than a
conclusory reformulation of the malice element of a
Fourth Amendment malicious prosecution claim, which
should be disregarded. See Twombly, 550 U.S. at 555
(“[A] plaintiff’s obligation to provide the ‘grounds’ of his
‘entitle[ment] to relief’ requires more than labels and
conclusions, and a formulaic recitation of the elements
of a cause of action will not do.” (alteration in original)
(citation omitted)).
3. Evaluation of the remaining allegations. Without
crediting the deficient allegations, Karkalas has failed
to plausibly allege two essential elements of a Fourth
Amendment malicious prosecution claim: lack of
probable cause and malice. A federal indictment
triggers a rebuttable presumption of probable cause to
prosecute. See Goodwin v. Conway, 836 F.3d 321, 329
(3d Cir. 2016); Rose v. Bartle, 871 F.2d 331, 353 (3d Cir.
1989); see also Kaley v. United States, 571 U.S. 320, 328
(2014) (“[A]n indictment fair upon its face and returned
by a properly constituted grand jury . . . conclusively

App. 12
determines the existence of probable cause to believe
the defendant perpetrated the offense alleged.”
(citations and internal quotation marks omitted)). And
without the allegations concerning the individual
defendants’ statements to the grand jury, the
remainder of the complaint does not rebut that
presumption. See Rose, 871 F.2d at 353 (explaining
that the presumption of probable cause “may be
rebutted by evidence that the [indictment] was
procured by fraud, perjury or other corrupt means”).
Likewise, without the excluded conclusory allegation of
malice, the remaining allegations – which do not reflect
a prosecution motivated by “ill will” or “spite” or some
“extraneous improper purpose,” Lippay v. Christos, 996
F.2d 1490, 1502 (3d Cir. 1993) (citation omitted) – do
not plausibly suggest that the prosecutor or the
investigator acted maliciously.
Karkalas has therefore failed to state a Fourth
Amendment malicious prosecution claim, as the
complaint does not plausibly allege two necessary
elements. Accordingly, the individual defendants are
entitled to qualified immunity for this claim. See
Bennett v. Murphy, 274 F.3d 133, 136 (3d Cir. 2001) (“If
the plaintiff fails to make out a constitutional violation,
the qualified immunity inquiry is at an end; the officer
is entitled to immunity.”).
B.
Karkalas also sues the individual defendants for
using fabricated evidence against him in violation of
the Fifth Amendment. See Halsey v. Pfeiffer, 750 F.3d
273, 289 (3d Cir. 2014) (“When falsified evidence is
used as a basis to initiate the prosecution of a

App. 13
defendant, . . . the defendant has been injured
regardless of whether the totality of the evidence,
excluding the fabricated evidence, would have given the
state actor a probable cause defense in a malicious
prosecution action . . . .”). The plausibility analysis for
this claim proceeds along the same lines as above,
yielding a similar result: Karkalas does not state a
plausible claim for a violation of the Fifth Amendment.
1. Articulation of the elements. For an acquitted
criminal defendant, a due process fabricated evidence
claim consists of the following elements:
(1)

a government actor’s production
introduction of evidence or testimony;

or

(2)

at any point before or during a criminal
proceeding;

(3)

that the government actor knew to be;

(4)

false; and

(5)

without that fabricated evidence, there is a
reasonable likelihood that the defendant
would not have been criminally charged.

See Black, 835 F.3d at 370–72; Halsey, 750 F.3d at
294–95; see also Caldwell v. City & County of San
Francisco, 889 F.3d 1105, 1112, 1115 (9th Cir. 2018);
Zahrey v. Coffey, 221 F.3d 342, 348–49, 355 (2d Cir.
2000).
2. Identification of deficient allegations. As before,
Karkalas’s allegations as to the statements made to the
grand jury are too speculative for inclusion in the
plausibility analysis.

App. 14
3. Evaluation of the remaining allegations. Without
the disregarded allegations, Karkalas does not
plausibly allege any element of a fabricated evidence
claim. He attempts to compensate for this shortcoming
by referencing statements that the prosecutor made
before the Magistrate Judge at the pretrial detention
hearing. Those statements include the assertions that
Karkalas was involved with an international drug
cartel, that his actions resulted in several drug related
deaths, that the evidence against him was
overwhelming, and that he presented a flight risk. But
the prosecutor made those statements not through
testimony or the admission of evidence, but rather
through advocacy – arguing that Karkalas should be
detained pursuant to a statutory presumption against
release based on the nature of his charges, see 18
U.S.C. § 3142(e)(3)(A). Beyond the dispositive facts that
those statements were not evidence and were made
after Karkalas was charged, the complaint still lacks
any non-conclusory allegations that the prosecutor
knew her statements to be false when she made them.
See Halsey, 750 F.3d at 295 (“[T]estimony that is
incorrect or simply disputed should not be treated as
fabricated merely because it turns out to have been
wrong.”). Absent plausible allegations stating a
fabricated evidence claim, the individual defendants
are entitled to qualified immunity. See id. at 295 (“[W]e
expect that it will be an unusual case in which a police
officer cannot obtain a summary judgment in a civil
action charging him with having fabricated evidence
used in an earlier criminal case.”).

App. 15
II.
In Count Two, Karkalas sues the United States for
the state-law tort of malicious prosecution under the
Federal Tort Claims Act. The FTCA exposes the United
States to tort liability by waiving its sovereign
immunity for certain claims. See 28 U.S.C.
§§ 1346(b)(1), 2674. But that waiver is limited by
several exceptions, and the United States invokes two
of those jurisdictional defenses here: the discretionary
function exception, id. § 2680(a), and the intentional
tort exception, id. § 2680(h). As explained below, the
discretionary function exception bars Karkalas’s
malicious prosecution claim, making it unnecessary to
evaluate the United States’ remaining defenses.
The discretionary function exception is aptly named.
It bars suits against the United States that challenge
“the exercise or performance or the failure to exercise
or perform a discretionary function or duty on the part
of . . . an employee of the Government, whether or not
the discretion involved be abused.” Id. § 2680(a). It
applies when the challenged acts (i) “involve[d] an
element of judgment or choice,” and (ii) were “based on
considerations of public policy.” United States v.
Gaubert, 499 U.S. 315, 322–23 (1991) (quoting
Berkovitz v. United States, 486 U.S. 531, 536–37
(1988)); see also Merando v. United States, 517 F.3d
160, 164–65 (3d Cir. 2008). Although the exception is
“jurisdictional on its face,” S.R.P. ex rel. Abunabba v.
United States, 676 F.3d 329, 333 n.2 (3d Cir. 2012), the
United States “has the burden of proving the
applicability of the discretionary function exception,”
Merando, 517 F.3d at 164 (citations omitted). Here,

App. 16
where the challenged acts involve the investigation and
prosecution of Karkalas, the United States has met
that burden.
Both the investigation and the prosecution of
Karkalas satisfy the first element of the discretionary
function exception. Investigation and prosecution
involve judgment or choice. See Pooler v. United States,
787 F.2d 868, 871 (3d Cir. 1986) (“Prosecutorial
decisions as to whether, when and against whom to
initiate prosecution are quintessential examples of
governmental discretion in enforcing the criminal law.”
(citations omitted)), abrogated on other grounds by
Millbrook v. United States, 569 U.S. 50 (2013);
Bernitsky v. United States, 620 F.2d 948, 955 (3d Cir.
1980) (“Decision making as to investigation and
enforcement, particularly when there are different
types of enforcement action available, are discretionary
judgments.”).
Similarly, those actions satisfy the second element.
Investigatory and prosecutorial decisions are
“susceptible to policy analysis.” Gaubert, 499 U.S. at
325; see Bond v. United States, 572 U.S. 844, 865 (2014)
(“Prosecutorial discretion involves carefully weighing
the benefits of a prosecution against the evidence
needed to convict, the resources of the public fisc, and
the public policy of the State.”); Baer v. United States,
722 F.3d 168, 175 (3d Cir. 2013) (“Whether to pursue a
lead, to request a document, or to assign additional
examiners to an investigation are all discretionary
decisions, which necessarily involve considerations of
. . . resource allocation and opportunity costs.”).

App. 17
Karkalas does not challenge those straightforward
conclusions directly. Rather, he contends that, even
with the government’s broad discretion to investigate
and prosecute crimes, “there is no discretion to violate
the Constitution.” Appellant’s Br. 22; see also Pooler,
787 F.2d at 871 (stating in dicta that “federal officials
do not possess discretion” to violate “constitutional
rights or federal statutes”). But this case does not
present an opportunity to evaluate that legal theory
because, as explained above, Karkalas does not allege
plausible violations of the Constitution. Without such
allegations, “all of the challenged actions . . . involved
the exercise of discretion in furtherance of public policy
goals,” Gaubert, 499 U.S. at 334, and the United States
thus retains its sovereign immunity for this claim.
***
In sum, the District Court properly dismissed the
Bivens claims against the prosecutor and the
investigator as well as the FTCA claim against the
United States. We will affirm.

App. 18

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
CIVIL ACTION
NO. 19-948
[Filed: July 31, 2019]
__________________________________________
ELIAS KARKALAS, M.D.
)
)
v.
)
)
LINDA MARKS, ESQUIRE, et al.
)
__________________________________________)
MEMORANDUM
KEARNEY, J.

July 31, 2019

We entrust our federal investigators and
prosecutors with substantial power to interrupt lives to
challenge conduct they believe violates the law. They
must balance their enforcement vigor with seasoned
discretion. As presented today, being indicted, arrested,
incarcerated and tried is undoubtedly a traumatic
series of events for a Pennsylvania medical doctor who
believes approving internet prescriptions for Fioricet
did not violate the Controlled Substances Act. After
spending time in a Philadelphia jail before trial, the
United States tried the doctor and co-defendants in the
District of Minnesota but then voluntarily dismissed

App. 19
the Controlled Substances Act charges during the trial.
The Minnesota federal jury found the United States did
not prove its case and acquitted the doctor and his codefendants of all remaining charges. Rather than seek
remedies provided by Congress like one of his codefendants, the doctor now sues the United States, its
Washington D.C. prosecutor, and the Drug
Enforcement Agency’s investigator from Minnesota
alleging they deprived him of civil rights under the
Fourth Amendment. Unlike civil rights claims against
state officials, claims against federal officials and the
United States are allowed only in strictly limited
instances and, as directed by Supreme Court, we may
not extend these remedies against federal officials
beyond those already recognized.
The United States did not prove the doctor’s guilt at
trial and the doctor is not incarcerated. He seeks
redress. But we lack personal jurisdiction over the
Washington D.C. prosecutor and Minnesota
investigator in Pennsylvania. Even if we could exercise
personal jurisdiction over the Washington prosecutor
and Minnesota investigator, the doctor cannot plead
the prosecutor and investigator deprived him of his
constitutional rights in pursuing charges relating to
prescribing Fioricet which some (but not all) courts
have recognized. Our elected representatives in
Congress defined the remedies and we may not expand
those remedies. They are also entitled to immunity.
The doctor also fails to plead claims against the United
States under the Federal Tort Claims Act or a
malicious prosecution theory. We grant the United
States’ and its officials’ Motions to dismiss in the
accompanying Order.

App. 20
I.

Alleged facts.

Dr. Elias Karkalas served as medical director at
Independence Blue Cross of Pennsylvania while
managing a private practice in King of Prussia,
Pennsylvania.1 Before 2013, Dr. Karkalas began
working with Rx Limited, an online pharmacy
company, approving requests on the internet for
prescription medications.2 He insisted Rx Limited did
not sell controlled substances.3
Dr. Karkalas approved requests for the drug
Fioricet.4 Fioricet contains butalbital, a Schedule III
controlled substance under the Controlled Substances
Act, along with caffeine and acetaminophen.5 Dr.
Karkalas did not believe Fioricet is a controlled
substance, nor had the Food and Drug Administration
designated Fioricet a controlled substance.6 Dr.
Karkalas used the Physician’s Desk Reference, an
authoritative source for doctors, to determine Fioricet
is a non-controlled medication.7
The Drug Enforcement Agency investigated the
diversion of prescription drugs into illegal markets.8
Diversion Investigator Kimberly Brill, a Minnesota
citizen, believed Rx Limited prescribed controlled
substances without a doctor-patient relationship in
violation of the Controlled Substances Act.9 Although
Investigator Brill believed Fioricet is a controlled
substance, she discovered during her investigations the
Food and Drug Administration had not designated
Fioricet a controlled substance.10
Investigator Brill brought her investigation
concerning Rx Limited to the United States Attorney’s

App. 21
Office in Minneapolis, but the Office declined to
prosecute.11 Investigator Brill then brought the case to
Attorney Linda Marks, a citizen of Washington, D.C.,
in the Department of Justice’s Consumer Protection
Branch.12 Attorney Marks agreed to prosecute.13
Investigator Brill and Attorney Marks alleged Rx
Limited constituted an “international conspiracy” to
illegally sell controlled substances online.14
On November 13, 2013, a grand jury in the United
States District Court of Minnesota indicted Dr.
Karkalas and ten other defendants involved with Rx
Limited on thirty-eight counts of violating the
Controlled Substances Act, mail and wire fraud, and
conspiring to launder money.15 The grand jury indicted
Dr. Karkalas under several provisions of the Controlled
Substances Act: Section 841(a) prohibiting distribution
of a controlled substance, Section 841(h) prohibiting
distribution of controlled substances on the internet,
and Section 831 requiring an online pharmacy display
certain licensure information on its homepage.16
Attorney Marks and Investigator Brill allegedly told
the grand jury: (1) Fioricet is a “controlled medication”;
(2) Dr. Karkalas “was aware that Fioricet was a
controlled medication”; and, (3) Dr. Karkalas “would
continue to prescribe [Fioricet] in the same manner
that he had.”17
Upon issuance of a warrant following the
indictment, unnamed officials arrested Dr. Karkalas at
his King of Prussia office.18 The United States held him
in the Federal Detention Center in Philadelphia for two
months.19 He then spent two weeks in an Oklahoma
facility and two months in a federally-contracted jail in

App. 22
Minnesota.20 He spent the six weeks before trial in a
halfway house.21
The United States did not apprehend three of the
indicted defendants. Three of the eleven defendants
plead guilty and five defendants—including Dr.
Karkalas—went to trial.22
In meetings and interviews before trial, Dr.
Karkalas unsuccessfully tried to persuade Attorney
Marks and Investigator Brill Fioricet is not a controlled
substance.23 Attorney Marks “sought to intimidate
witnesses” like Dr. Karkalas’s nurse and office
manager to testify against him.24
Attorney Marks tried the five defendants together
in the District of Minnesota for conspiracy to distribute
Fioricet online without valid prescriptions under the
Controlled Substances Act, mail and wire fraud, and
money laundering.25 Attorney Marks dropped the
Controlled Substances Act charges midway through
trial.26 On March 17, 2017, a jury acquitted Dr.
Karkalas and the other four defendants on all
remaining counts.27 Following acquittal, one of Dr.
Karkalas’s co-defendants moved for an award of
attorney’s fees under the Hyde Amendment arguing
bad-faith prosecution.28 The trial court held, while the
prosecution made mistakes during trial, Dr. Karkalas’s
co-defendant failed to show “frivolous, vexatious, or bad
faith conduct.”29 Dr. Karkalas decided not to move for
attorneys’ fees.
He instead decided to sue Attorney Marks,
Investigator Brill, and the United States for
prosecuting him and detaining him before trial. He

App. 23
alleges Attorney Marks and Investigator Brill
presented “false and misleading evidence and
testimony to the Grand Jury” to secure an indictment.30
He alleges Fioricet is not a controlled substance under
the Act, and Attorney Marks and Investigator Brill
knew Fioricet is not a controlled substance but still
prosecuted him. Dr. Karkalas also alleges Attorney
Marks and Investigator Brill had no evidence Dr.
Karkalas knew Fioricet is a controlled substance. He
alleges Attorney Marks’s dismissal of the Controlled
Substance Act charges during trial signaled “the case
was a sham from the beginning and should have never
been initiated.”31
Dr. Karkalas sues Attorney Marks and Investigator
Brill for unlawful prosecution and pretrial detention
under the Fourth Amendment alleging “malicious
prosecution and knowing presentation of false and
misleading testimony, and evidence to the Grand
Jury.”32 He sues the United States under the Federal
Tort Claims Act alleging “malicious prosecution
committed by investigative or law enforcement officers
of the United States, acting within the scope of their
employment.”33
II.

Analysis.34

Attorney Marks and Investigator Brill move to
dismiss Dr. Karkalas’s First Amended Complaint
arguing (1) we lack personal jurisdiction over them,
(2) venue is improper in the Eastern District of
Pennsylvania, (3) we should not imply a constitutional
remedy against federal officials under these
circumstances, and (4) absolute and qualified immunity
bars Dr. Karkalas’s claims.35

App. 24
The United States separately move to dismiss the
First Amended Complaint arguing (1) Attorney Marks
and Investigator Brill are not “investigative or law
enforcement officers” under the Federal Tort Claims
Act, (2) the discretionary function exception bars Dr.
Karkalas’s claims, and (3) Dr. Karkalas fails to state a
claim for malicious prosecution.36
We lack personal jurisdiction over Attorney Marks
and Investigator Brill. Venue over them and the United
States is proper. But we still dismiss the case as Dr.
Karkalas cannot state claims against Attorney Marks,
Investigator Brill or the United States.
A. We dismiss Dr. Karkalas’s claims for
unlawful prosecution and pretrial
detention against Attorney Marks and
Investigator Brill.
1. We lack personal jurisdiction over
Attorney Marks and Investigator
Brill.
Attorney Marks and Investigator Brill argue we
lack personal jurisdiction over them because they are
nonresident defendants lacking minimum contacts
with Pennsylvania. We analyze personal jurisdiction
based on Pennsylvania law.37 The Pennsylvania
General Assembly allows personal jurisdiction “to the
fullest extent allowed under the Constitution of the
United States and may be based on the most minimum
contact with this Commonwealth allowed under the
Constitution of the United States.”38 Under the Due
Process Clause, we have personal jurisdiction provided
Attorney Marks and Investigator Brill have “certain

App. 25
minimum contacts with . . . [Pennsylvania] such that
the maintenance of the suit does not offend traditional
notions of fair play and substantial justice.”39
Attorney Marks and Investigator Brill argue they
lack “minimum contacts” with Pennsylvania. The
Supreme Court instructs we focus on “the relationship
among the defendant, the forum, and the litigation” to
determine whether “minimum contacts” exist.40 The
relationship must arise from contacts the “‘defendant
himself’ creates with the forum State.”41 We focus on
“the defendant’s contacts with the forum State itself,
not the defendant’s contacts with persons who reside
there.”42 “The plaintiff cannot be the only link between
the defendant and the forum,” and the defendant’s
conduct “must form the necessary connection with the
forum State that is the basis for its jurisdiction over
him.”43 “[A] defendant’s relationship with a plaintiff or
third party, standing alone, is an insufficient basis for
jurisdiction.”44 We may only exercise jurisdiction over
a defendant “based on [the defendant’s] own affiliation
with the State, not based on the ‘random, fortuitous, or
attenuated’ contacts he makes by interacting with
other persons affiliated with the State.”45
In Walden v. Fiore, a Drug Enforcement Agency
officer seized cash from an airplane passenger in
Atlanta while the passenger waited for a flight home to
Las Vegas.46 After the passenger returned to Las
Vegas, his attorney requested return of the cash. The
passenger alleged the officer falsified a probable cause
affidavit seeking forfeiture of the money, but the
United States never filed a forfeiture complaint and the
Drug Enforcement Agency returned the money. The

App. 26
passenger sued the officer, a Georgia resident, in the
District of Nevada alleging illegal seizure. The district
court dismissed for lack of personal jurisdiction, but the
Court of Appeals for the Ninth Circuit reversed
explaining the officer submitted a falsified affidavit in
Georgia knowing it would affect the passenger having
“significant connection” to Nevada.47
The Supreme Court reversed the court of appeals
and held the district court lacked personal jurisdiction
over the officer.48 The Supreme Court explained the
court of appeals improperly focused on the passenger’s
connection with Nevada, not the officer’s connections.49
While the officer directed his conduct at the passenger,
because he knew the passenger had a connection to
Nevada, the officer’s conduct had nothing to do with
Nevada independent of the passenger. Had the
passenger lived in California or Mississippi, the officer
would have no connection to Nevada. The Supreme
Court explained “the defendant, not the plaintiff or
third parties . . . must create contacts with the forum
State” to establish personal jurisdiction.50
Dr. Karkalas responds Attorney Marks and
Investigator Brill “appeared in the Eastern District of
Pennsylvania to investigate the claims, [met] with
witnesses, and secured the pre-trial detention of Dr.
Karkalas from U.S. Magistrate Judge Jacob Hart of the
Eastern District of Pennsylvania.”51 He alleges
Attorney Marks interviewed Dr. Karkalas in
Pennsylvania and used information she obtained in
prosecuting him.52 Attorney Marks admits she came to
Pennsylvania for Dr. Karkalas’ s pretrial hearing.53 Dr.
Karkalas alleges Investigator Brill investigated his

App. 27
Pennsylvania conduct in support of presenting the
United States’ criminal case.54 He further alleges their
conduct caused his pre-trial custody in a Pennsylvania
jail for months.
Dr. Karkalas is “the only link between the
defendant[s] and the forum.”55 Attorney Marks and
Investigator Brill did not themselves create a contact
with Pennsylvania independent of Dr. Karkalas.
Attorney Marks appeared for Dr. Karkalas’s detention
hearing in Philadelphia. She created a contact with the
justice system in Pennsylvania. She used the federal
court and jail in Pennsylvania to move forward on the
Minnesota trial. There is no plead nexus between
Investigator Brill and Pennsylvania. Like Walden, the
individuals’ conduct affected Pennsylvania only
through the link with Dr. Karkalas. Had the United
States arrested and detained Dr. Karkalas in New
Jersey, Attorney Marks and Investigator Brill would
have no contact with Pennsylvania.
Personal jurisdiction would seem to be a close call
based on the conduct directed at Dr. Karkalas’s
Pennsylvania practice, detention hearing, and jail time
in a Pennsylvania prison. But under Walden, the
challenged conduct is related only to Dr. Karkalas. This
nexus is insufficient for personal jurisdiction. Dr.
Karkalas fails to articulate a credible basis for
Pennsylvania’s personal jurisdiction over Attorney
Marks and Investigator Brill. We dismiss Attorney
Marks and Investigator Brill without prejudice for lack
of personal jurisdiction.

App. 28
2. Venue is proper.
Investigator Brill and Attorney Marks alternatively
argue venue is improper because they do not reside in
Pennsylvania and no events giving rise to the claim
occurred in Pennsylvania. But if we found personal
jurisdiction over them, we would enjoy proper venue
over them as we do for the claims the United States.
in:

Under 28 U.S.C. § 1391(b), Dr. Karkalas may sue
(1) a judicial district in which any defendant
resides, if all defendants are residents of the State
in which the district is located;
(2) a judicial district in which a substantial part of
the events or omissions giving rise to the claim
occurred, or a substantial part of property that is
the subject of the action is situated; or
(3) if there is no district in which an action may
otherwise be brought as provided in this section,
any judicial district in which any defendant is
subject to the court’s personal jurisdiction with
respect to such action.56

Dr. Karkalas admits Attorney Marks and
Investigator Brill do not reside in Pennsylvania. He
instead alleges “acts giving rise” to his claims occurred
in this forum.57 Under § 1391(b)(2), our Court of
Appeals explained the test for venue is “not the
defendant’s ‘contacts’ with a particular district, but
rather the location of those ‘events or omissions giving
rise to the claim[.]’”58 To determine whether the events
are “substantial,” we must look at “the nature of the

App. 29
dispute.”59 Dr. Karkalas need not show our District is
“the locus of the majority of the events or omissions.”60
But “events or omissions that might only have some
tangential connection with the dispute in litigation are
not enough” to establish venue under § 1391(b)(2).61
Attorney Marks and Investigator Brill argue venue
is improper because “[Dr.] Karkalas was prosecuted in
Minnesota.”62 But Dr. Karkalas sues for unlawful
prosecution and pretrial detention under the Fourth
Amendment. He alleges his arrest in this District at his
King of Prussia office and unlawful pretrial detainment
at the Federal Detention Center in Philadelphia for two
months.63 He alleges Attorney Marks appeared in the
Eastern District of Pennsylvania to secure his pretrial
detention before United States Magistrate Judge Jacob
Hart of the Eastern District of Pennsylvania.64 He more
fundamentally alleges his prescribing medicine from
his office in King of Prussia gave rise to the
investigation, detention, and prosecution. These events
bear more than a “tangential connection” with his
claims as the alleged unlawful detention occurred in
our District and his prosecution stemmed from his
arrest and conduct in this District. Dr. Karkalas shows
a substantial part of the events giving rise to his claims
occurred in the Eastern District of Pennsylvania.
Assuming we could find personal jurisdiction, we
disagree with Attorney Marks and Investigator Brill
and would hold venue is proper in our District.

App. 30
3. We do not imply a Bivens cause of
action against Attorney Marks and
Investigator Brill.
Even assuming we enjoyed personal jurisdiction
over Attorney Marks and Investigator Brill, Dr.
Karkalas cannot state a claims for unlawful seizure
and prosecution by them under Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics.65 While
Congress established a damages remedy under 42
U.S.C. § 1983 against state officials for constitutional
violations, it did not create an analogous statute for
damages against federal officials.66 But in Bivens, the
Supreme Court implied a damages remedy under the
Constitution against federal officials despite Congress’s
inaction.67
In Bivens, federal agents entered a man’s house
without a warrant, arrested and handcuffed him, and
searched his house for drugs.68 The man sued the
federal agents for damages under the Fourth
Amendment alleging a warrantless search and
unreasonable seizure.69 The district court dismissed his
case and the court of appeals affirmed.70 But the
Supreme Court recognized an implied private cause of
action for damages for a federal officer’s violation of a
person’s Fourth Amendment rights.71 The Supreme
Court explained while Congress had not created a
private cause of action against federal official for
damages, the Supreme Court had the power to “adjust
. . . remedies so as to grant the necessary relief” to
protect a constitutional right.72
Since Bivens, the Supreme Court only recognized an
implied private cause of action under the Constitution

App. 31
against federal officials in certain instances and
discouraged extending its holding. The Supreme Court
explained it “has repeatedly refused to extend Bivens
actions beyond the specific clauses of the specific
amendments [of the Constitution] for which a cause of
action has already been implied, or even to other
classes of defendants facing liability under those same
clauses.”73 In Ziglar v. Abbasi, the United States held
hundreds of noncitizens on immigration charges under
an executive policy following the September 11
terrorist attacks.74 The noncitizens sued alleging
executive officials responsible for the policy detained
them longer than necessary under harsh conditions.
They sued the wardens of the detention facilities for
unlawful detention and unconstitutional conditions of
confinement under Bivens alleging Fourth and Fifth
Amendment violations.75
The Supreme Court explained expanding the Bivens
remedy is now a S“disfavored” judicial activity.76 The
Supreme Court recognized an implied action against
federal officials in three cases: (1) Bivens itself—“a
claim against FBI agents for handcuffing a man in his
own home without a warrant” under the Fourth
Amendment;77 (2) “a claim against a Congressman for
firing his female secretary” under the Fifth
Amendment;78 and, (3) “a claim against prison officials
for failure to treat an inmate’s asthma” under the
Eighth Amendment.79 But beyond these three cases,
the Supreme Court refused to extend Bivens “to any
new context or new category of defendants.”80 The
Supreme Court found noncitizens’ claims for unlawful
detainment and unconstitutional conditions of
confinement following a major terrorist attack did not

App. 32
resemble the three recognized Bivens claims, thus
presenting a “new context” for a Bivens action.81 The
Supreme Court found the conditions of confinement
claim differed from the claim in Carlson v. Green,
explaining the noncitizens in Ziglar alleged failure to
respond to grievances, while the prisoner in Carlson
alleged failure to provide adequate medical care.82 The
Supreme Court cautioned “even a modest extension [of
Bivens] is still an extension.”83
The Supreme Court then explained “special factors”
showed the Court should not imply a Bivens remedy:
(1) a court should not inquire into the “formulation and
implementation” of an executive policy and the
“discussion and deliberation” leading to the policy84;
(2) as the United States implemented the policy in
response to a terrorist attack, a court in a Bivens action
would inquire into “sensitive issues of national
security”85; (3) the noncitizens had alternative
remedies, including injunctive relief or writs of habeas
corpus.86 Concerning the conditions of confinement
claim, the Supreme Court explained with the Prison
Litigation Reform Act, Congress did not provide a
“standalone damages remedy” against federal officials,
suggesting Congress did not intend to extend Bivens.87
The Supreme Court instructed when facing a claim
under Bivens, we must first determine whether the
case presents a new context for a Bivens action.88 We
undertake a “rigorous inquiry . . . before implying a
Bivens cause of action in a new context or against a
new category of defendants.”89 A Bivens case presents
a new context “[i]f the case is different in a meaningful
way from previous Bivens cases decided by [the

App. 33
Supreme] Court[.]”90 The Supreme Court gave
examples of differences showing a case presents a new
context including:
the rank of the officers involved; the
constitutional right at issue; the generality or
specificity of the official action; the extent of
judicial guidance as to how an officer should
respond to the problem or emergency to be
confronted; the statutory or other legal mandate
under which the officer was operating; the risk
of disruptive intrusion by the Judiciary into the
functioning of other branches; or the presence of
potential special factors that previous Bivens
cases did not consider.91
If the case presents a new context, we proceed with
two separate inquires. We ask whether there is any
‘“alternative, existing process’ capable of protecting the
constitutional interests at stake.”92 A Congressionallycreated “alternative remedial structure” limits our
ability to imply a Bivens action.93
We also ask whether there are “special factors
counseling hesitation” in extending Bivens to a new
context.94 We ask whether these factors show creating
a damages action is a “decision for the Congress to
make, not the courts.”95
In Lane v. Schade, the District Court for the District
of New Jersey applied the Supreme Court’s holding in
Ziglar and refused to extend Bivens to a malicious
prosecution claim against federal officials.96 A national
park ranger arrested Mr. Lane suspecting public
intoxication.97 Mr. Lane argued the park ranger lacked

App. 34
probable cause for the arrest. The park ranger then
searched Mr. Lane’s car and found prescription drugs.
In a bench trial, a United States prosecutor tried Mr.
Lane for unlawful possession of drugs. The judge found
the government “failed to sustain its burden of proof”
and acquitted Mr. Lane.98 Mr. Lane sued the United
States prosecutor for malicious prosecution. The
district court, citing Ziglar, explained the claim for
malicious prosecution presented a new context for a
Bivens action since it “d[id] not resemble the claims the
Court has previously approved.”99 The court refused to
recognize a Bivens action for Mr. Lane’s malicious
prosecution claim but did not ask whether an
alternative remedy exists or whether special factors
counseled against extending Bivens.100
The United States District Court for the Western
District of Pennsylvania also refused to imply a Bivens
action alleging a federal agent coerced a confession
violating the prisoner’s Fifth Amendment right.101 The
court found the prisoner had no alternative remedy
besides a Bivens action but dismissed the claim holding
special factors counseled against extending Bivens. The
court explained Congress addressed coerced confessions
in 18 U.S.C. § 3501 governing the admissibility of
confessions.102 But while Congress prohibited the
United States from using coerced confessions in
criminal cases, it did not create a private right of action
for criminal defendants.103 The court also explained
implying a Bivens remedy in the criminal process
context would “flood the federal courts with
constitutional damage claims by the many criminal
defendants who leave the criminal process convinced

App. 35
that they have been prosecuted and convicted
unfairly.”104
We use the template in Ziglar to determine whether
to imply a Bivens action for Dr. Karkalas’s claims
against Attorney Marks and Investigator Brill. We ask
(1) whether Dr. Karkalas’s case presents a “new
context” for a Bivens actions; (2) if so, whether
Congress created an “alternative, existing process for
protecting [Dr. Karkalas’s] interest”; and, (3) whether
“special factors [exist] counselling hesitation in the
absence of affirmative action by Congress.”105
a. Dr. Karkalas’s claim presents a
new context to imply a Bivens
action.
Attorney Marks and Investigator Brill argue Dr.
Karkalas’s claim presents a Bivens action in a new
context. We agree. Dr. Karkalas seeks relief for an
unlawful prosecution and pretrial detention following
allegedly false and misleading statements to a grand
jury to secure an indictment for violations of the
Controlled Substances Act.106 His case most closely
resembles Bivens itself, where a citizen sued federal
agents for searching his house without a warrant and
arresting him without probable cause.107 But Attorney
Marks and Investigator Brill argue Dr. Karkalas
complains of illegal prosecution and pretrial detention
following an indictment, not warrantless search and
arrest. Unlike Bivens, resolution of Dr. Karkalas’s
claim necessitates an inquiry into the grand jury
proceedings since he alleges false testimony before the
grand jury. Such conduct presents a different context
than the conduct in Bivens.108

App. 36
Dr. Karkalas argues his case does not present a new
context because Bivens involved Fourth Amendment
claims.109 But the Supreme Court in Ziglar explained a
case can present a new context despite arising under
an amendment in one of the three recognized Bivens
claims.110 The Supreme Court found the detainees’
cases presented a new context despite the claims
arising under the Fourth and Fifth Amendments—
amendments in two of the three recognized Bivens
actions.111 The Supreme Court instructed the correct
test for determining whether a case presents a new
context involves determining whether “the case is
different in a meaningful way from previous Bivens
cases decided by this Court.”112
Dr. Karkalas also argues his case does not present
a “new context” because the Supreme Court in Manuel
v. City of Joliet recognized unlawful pretrial detention
violated an individual’s Fourth Amendment rights.113
In Manuel, police officers tested a bottle of vitamins
from Mr. Manuel’s car and found they did not contain
illegal drugs.114 The police officers nonetheless arrested
Mr. Manuel. A lab technician tested the pills and
falsely reported the pills contained ecstasy. Mr.
Manuel’s pretrial detention and prosecution stemmed
from the false arrest and report. Mr. Manuel sued the
police officers and the City under § 1983 alleging
unlawful detention and prosecution. The Supreme
Court held Mr. Manuel could pursue a § 1983 claim
against the police and the City for unlawful pretrial
detention under the Fourth Amendment.115
Dr. Karkalas ignores the test in Ziglar for
determining whether a case presents a new context:

App. 37
whether “the case is different in a meaningful way from
previous Bivens cases decided by this Court.”116 The
Supreme Court held Mr. Manuel could pursue a § 1983
action against state officials under the Fourth
Amendment.117 Manuel is a § 1983 case, not a Bivens
case. Dr. Karkalas cannot rely on the Supreme Court’s
decision in Manuel to defeat the argument his case
presents a “new context” for a Bivens action.
Dr. Karkalas’ s claims for unlawful prosecution and
pretrial detention present a new context for a Bivens
action. He is asking us to extend a damages remedy
against federal officials for alleged false statements in
the grand jury leading to a false indictment, arrest,
detention and trial. His claim rests upon his belief
someone gave false testimony in a sealed grand jury
proceeding. He does not show us a case extending
Bivens in this context.
b. Attorney Marks and Investigator
Brill show an “alternative
remedial structure” exists to
protect Dr. Karkalas’s interests.
In next determining whether to imply a Bivens
action in a new context, we ask whether there is “any
alternative, existing process for protecting the [injured
party’s] interest[.]”118 An alternative remedial process
provides “a convincing reason for the Judicial Branch
to refrain from providing a new and freestanding
remedy in damages.”119 A statutory remedy for a
federal official’s constitutional violation obviates the
need for a Bivens action.120

App. 38
Attorney Marks and Investigator Brill argue two
processes exist to protect Dr. Karkalas’s interest:
(1) the grand jury proceeding and (2) a criminal
defendant’s ability to challenge the indictment or the
prosecution. They argue Dr. Karkalas took advantage
of these processes by moving to dismiss the indictment.
The District Court for the District of Minnesota denied
his motion finding the Drug Enforcement Agency did
not exempt the sale of Fioricet without a prescription
from criminal penalties under the Controlled
Substances Act.121
Attorney Marks and Investigator Brill also argue
Congress created an alternative remedial structure
with the Hyde Amendment and the Unjust Conviction
and Imprisonment Law. Under the Hyde Amendment,
a criminal defendant acquitted on all charges may
petition for attorneys’ fees provided the United States
prosecuted the defendant in bad faith.122 Under the
Unjust Conviction law, a criminal defendant can
recover damages from the United States if he can prove
a court “reversed or set aside [his conviction] on the
ground that he is not guilty of the offense of which he
was convicted.”123 If a criminal defendant can prove he
is not guilty, he can recover up to $50,000 for each
twelve-month period of wrongful incarceration.124
The Court of Appeals for the Eighth Circuit found
the Hyde Amendment and Unjust Conviction law
provide an “alternative remedy” weighing against
implying a Bivens action for malicious prosecution.125
In Farah v. Weyker, a grand jury indicted Mr. Farah for
his involvement in a sex-trafficking conspiracy.126 Like
Dr. Karkalas, Mr. Farah alleged an investigating

App. 39
officer presented false testimony to the grand jury to
secure the indictment.127 The United States detained
Mr. Farah before trial and a jury acquitted Mr. Farah.
He sued the investigating officer under the Fourth
Amendment for illegal prosecution and pretrial
detention. Citing the Supreme Court’s holding in
Ziglar, the court of appeals refused to imply a Bivens
action for Mr. Farah’s claims. The court found the Hyde
Amendment and the Unjust Conviction law constituted
an “alternative remedial structure” and found implying
a Bivens remedy would upset the structure.128 The
court of appeals explained with the Hyde Amendment,
Congress intended to grant criminal defendants some
relief by awarding attorneys’ fees when the United
States initiates bad-faith or frivolous prosecution.129
With the Unjust Conviction law, Congress provided
relief to criminal defendants wrongfully convicted.130
Congress addressed relief for the charged defendant’s
alleged injuries with these two statutes.131
Mr. Farah argued he could not qualify for these
remedies because (1) he had appointed counsel and
(2) a jury acquitted, not wrongfully convicted, him—
like Dr. Karkalas. But the court of appeals explained
these factors cut against implying a Bivens action. The
court explained if Mr. Farah had been wrongfully
convicted or retained counsel, he would be eligible for
relief. Congress chose to provide a remedy “for some
victims of this particular type of injury, but not for
others, suggest[ing] that it considered the issue and
made a deliberate choice.”132 Extending remedies to
someone like Mr. Farah would “upset the existing
‘remedial structure”’ Congress created.133

App. 40
Mr. Farah also argued even if he did qualify under
the Hyde Amendment or the Unjust Conviction law,
these remedies failed to offer similar compensation as
an award of damages. But the court explained the
alternative remedies need not equate to damages. The
court explained the Supreme Court held non-monetary
“alternative remedies” like injunctions and habeas
relief triggered the rule “when alternative methods of
relief are available, a Bivens remedy usually is not.”134
Dr. Karkalas makes the same arguments as Mr.
Farah. He argues the alternative remedies under the
Hyde Amendment and the Unjust Conviction law are
“wholly inadequate” for the pain and suffering he
experienced.135 While we understand his frustration, we
agree with the Court of Appeals for the Eighth Circuit
Congress contemplated remedies for criminal
defendants like Dr. Karkalas complaining of improper
prosecution. Congress designed a remedial structure
offering relief for wrongfully convicted criminal
defendants and defendants with retained counsel
against whom the United States pursued bad faith or
frivolous litigation. For example, Dr. Karkalas’s codefendant moved for fees under the Hyde Amendment
and the trial court found the co-defendant failed to
show “frivolous, vexatious, or bad faith conduct” by
Attorney Marks allowing an award of fees.136
Dr. Karkalas also alleges “bad faith prosecution”
but he failed to move for fees under the Hyde
Amendment.137 Attorney’s fees do not equate to
damages, and a jury acquitted Dr. Karkalas making
him ineligible for relief under the Unjust Conviction
law. Congress nevertheless created a remedial

App. 41
structure and we should not upset the structure by
implying a Bivens action here.
c. Special factors exist counseling
against implying a Bivens action
for Dr. Karkalas’s claims.
We also ask whether there are “special factors
counselling hesitation in the absence of affirmative
action by Congress.”138 In doing so, we “weigh[ ] reasons
for and against the creation of a new cause of action,
the way common law judges have always done.”139 We
ask the critical question ‘“who should decide’ whether
to provide for a damages remedy, Congress or the
courts?”140 We should not imply a Bivens remedy “if
there are sound reasons to think Congress might doubt
the efficacy or necessity of a damages remedy as part of
the system for enforcing the law and correcting a
wrong[.]”141
Attorney Marks and Investigator Brill argue several
factors counsel against implying a Bivens action:
(1) grand jury proceedings are secret, (2) Investigator
Brill is not a traditional law enforcement officer, and
(3) Congress expressly refused to provide a private
cause of action and immunized the United States and
its employees under a section of the Controlled
Substances Act.
i. The secrecy of grand jury
proceedings counsels against
implying a Bivens action.
Attorney Marks and Investigator Brill argue the
secrecy of grand jury proceedings counsels against
implying a Bivens action here. In Farah, the Court of

App. 42
Appeals for the Eighth Circuit found the secrecy of
grand jury proceedings constituted a “special factor”
counseling against a Bivens action.142 The court
explained Mr. Farah’s claims alleging false information
presented to the grand jury would require the court to
determine “whether there was probable cause to charge
the plaintiffs with a crime that would have justified
their detention pending trial.”143 The court explained to
determine whether the grand jury had probable cause
to indict Mr. Farah, the court would necessarily have
to (1) look at the grand jury record to see if probable
cause existed and (2) interview grand jury members to
determine whether the allegedly false testimony
influenced grand jury members in returning an
indictment.144
Dr. Karkalas argues the secrecy of the grand jury
proceeding does not counsel against recognizing a
Bivens action for malicious prosecution because courts
recognize malicious prosecution claims under § 1983.
But the court in Farah explained Congress in passing
§ 1983 recognized the encroachment into grand jury
proceedings for actions against state officials and
determined “the potential encroachment is worth it.”145
The court would not say the same for an action against
federal officials “without any congressional
guidance.”146
We agree with the Court of Appeals for the Eighth
Circuit the secrecy of grand jury proceeding counsels
against recognizing a Bivens action for Dr. Karkalas’s
claims. Dr. Karkalas alleges Attorney Marks and
Investigator Brill gave false testimony to the grand
jury to secure an indictment against Dr. Karkalas.147

App. 43
His claim will necessarily lead to an inquiry into the
grand jury proceeding and the testimony presented. Dr.
Karkalas does not deny he sold Fioricet and Fioricet
contains butalbital, a controlled substance. Considering
the admitted evidence against him, his claim would
require whether the alleged false testimony
proximately caused his injury. Dr. Karkalas argues
courts recognize malicious prosecution claims under
§ 1983 and such claims involve an inquiry into grand
jury proceedings. But as the court of appeals explained
in Farah, Congress contemplated this distinction in
liability of federal and state officials in passing § 1983.
It provided no similar remedy against federal officials.
Congress must decide whether to provide a remedy.
ii. Investigator Brill’s status as a
diversion investigator counsels
against recognizing a Bivens
action.
Investigator Brill argues we should not imply a
Bivens remedy because she is a diversion investigator
for the Drug Enforcement Agency and not a typical law
enforcement officer. Investigator Brill cites Vanderklok
v. United States.148 After going through an airport
checkpoint, Mr. Vanderklok threatened to file a
complaint against a Transportation Security
Administration screener, who then called the police
and falsely reported Mr. Vanderklok threatened to
bring a bomb on an airplane.149 A jury acquitted Mr.
Vanderklok and he then sued the screener alleging a
Bivens action for retaliatory prosecution under the
First Amendment.150

App. 44
Our Court of Appeals declined to imply a Bivens
remedy against airport screeners explaining they are
not “investigative or law enforcement officers.”151 In
deciding whether to imply a remedy, the court looked
to the Federal Tort Claims Act and found Congress
waived sovereign immunity for tort claims against
“investigative or law enforcement officers.”152 The court
further explained under Transportation Security
Administration regulations, the Administration did not
train screeners on probable cause, reasonable
suspicion, or other constitutional doctrines governing
law enforcement officers.153 Screeners can only conduct
administrative searches rather than criminal ones.154
The court contrasted screeners with the
Administration’s designated law enforcement officers
whom the Administration authorized to “carry and use
firearms” and arrest suspects.155
Investigator Brill argues, like airport screeners,
Drug Enforcement Agency Diversion Investigators are
not traditional law enforcement officers. Under the
regulation governing diversion investigators’ powers,
the Agency did not authorize them to carry firearms or
make arrests, only authorizing the following conduct:
(1) administering oaths and serving subpoenas;
(2) conducting administrative inspections and
executing administrative inspection warrants;
(3) seizing property incident to compliance and
registration inspections and investigations; and
(4) seizing or placing controlled substances under
seal.156
Investigator Brill’s status as a diversion
investigator constitutes a “special factor” counseling

App. 45
against implying a Bivens action against Investigator
Brill. Like the airport screeners in Vanderklok,
diversion investigators cannot carry firearms or make
arrests. Diversion investigators conduct administrative
searches and issue administrative warrants. Dr.
Karkalas argues diversion investigators can take part
in criminal investigations and Investigator Brill did in
this case. But like Vanderklok, the Drug Enforcement
Agency distinguished between “criminal investigators”
and “diversion investigators.”157 While Investigator
Brill participated in a criminal investigation, we leave
to Congress to decide whether to grant a remedy
against a class of federal employees the Drug
Enforcement Agency failed to classify as “criminal”
investigators.
Investigator Brill’s status as a diversion
investigator counsels against implying a Bivens action.
iii.

Congress’s failure to create a
private right of action under
the Ryan Haight Act counsels
against recognizing a Bivens
action.

Attorney Marks and Investigator Brill argue we
should not imply a Bivens action because Congress
refused to create a private cause of action under the
Ryan Haight Act and immunized the United States and
its employees. Congress passed the Ryan Haight Act,
an amendment to the Controlled Substances Act, in
2008 to allow states to sue online pharmacy companies
for damages and to enjoin the sale of controlled
substances on the internet.158 Congress granted district
courts jurisdiction to entertain states’ cases against

App. 46
online pharmacies for damages and injunctive relief.159
But Congress explained “no private right of action is
created under” the Ryan Haight Act.160 Congress
further provided a person may not bring civil action
under the Ryan Haight Act against the United States
or one of its employees.161
Dr. Karkalas declined to oppose this argument.
Congress considered whether to create a private right
of action under the Controlled Substances Act and
chose not to. It also chose to immunize the United
States under the Act. While this provision does not
address Dr. Karkalas’s claims, it shows Congress
contemplated remedies for federal officials’ violations
under the Act. The decision to grant a remedy is better
left to Congress.
Under the Supreme Court’s guidance in Ziglar, Dr.
Karkalas cannot pursue a Bivens action against
Attorney Marks and Investigator Brill for unlawful
prosecution and pretrial detention. Dr. Karkalas’s
claim presents a “new context” for a Bivens action.
Congress created a remedial structure for criminal
defendants like Dr. Karkalas. One of Dr. Karkalas’s codefendants used the remedial structure in moving for
attorneys’ fees under the Hyde Amendment, but Dr.
Karkalas did not. Even though Dr. Karkalas seeks
damages rather than attorneys’ fees, recognizing a
Bivens cause of action would upset the existing
remedial structure Congress created. Special factors
also counsel against a Bivens action, including the
secrecy of grand jury proceedings, Investigator Brill’s
status as a diversion investigator for the Drug

App. 47
Enforcement Agency, and Congress’s decision not to
create a private cause of action under the Act.
We do not imply a Bivens cause of action for Dr.
Karkalas’s claims against Attorney Marks and
Investigator Brill.
4. Prosecutorial immunity bars Dr.
Karkalas’s claims against Attorney
Marks and qualified immunity bars
his claims against Attorney Marks
and Investigator Brill.
Attorney Marks and Investigator Brill argue even if
we imply a Bivens cause of action for Dr. Karkalas’s
case, the doctrines of prosecutorial immunity and
qualified immunity bar his claims against them.
a. Prosecutorial immunity bars Dr.
Karkalas’s Bivens claim against
Attorney Marks.
Attorney Marks argues prosecutorial immunity bars
Dr. Karkalas’s claims against her. Absolute immunity
bars claims against prosecutors under federal law for
acts “‘intimately associated with the judicial phase of
the criminal process,’ such as ‘initiating a prosecution
and . . . presenting the State’s case.’”162 Prosecutorial
immunity applies even when a plaintiff alleges the
prosecutor’s “knowing use of false testimony before the
grand jury and at trial.”163 Prosecutorial immunity also
applies to “witness interviews generating evidence for
judicial proceedings.”164
Dr. Karkalas alleges Attorney Marks “interviewed
witnesses in this District, met and interviewed Dr.

App. 48
Karkalas and personally obtained evidence that she
would use in the prosecution of Dr. Karkalas.”165 He
also alleges Attorney Marks made “false and
misleading representations” to the grand jury in
seeking an indictment against Dr. Karkalas.166 He
claims Attorney Marks tried to get Dr. Karkalas’s
nurse and office manager to testify against him.167
Attorney Marks’ alleged conduct involves generating
evidence for judicial proceedings and presenting the
United States’ case.
Dr. Karkalas argues prosecutorial immunity does
not apply to Attorney Marks’s “administrative duties
and those investigatory functions that do not relate to
an advocate’s preparation for the initiation of a
prosecution or for judicial proceedings.”168 But Mr.
Karkalas complains of Attorney Marks’ generating and
presenting evidence in support of prosecution, not
unrelated administrative or investigatory duties.
Because he complains of Attorney Marks’s conduct
directed to Dr. Karkalas’s prosecution, prosecutorial
immunity bars his claims against Attorney Marks.
b. Qualified immunity bars Dr.
Karkalas’s Bivens claim against
Attorney Marks and Investigator
Brill.
Attorney Marks and Investigator Brill argue even
assuming absolute immunity does not apply, qualified
immunity bars Dr. Karkalas’s claims because Attorney
Marks and Investigator Brill reasonably believed they
could prosecute him for distributing Fioricet.

App. 49
We apply a two-step qualified immunity analysis:
we ask “(1) whether the plaintiff sufficiently alleged the
violation of a constitutional right, and (2) whether the
right was ‘clearly established’ at the time of the
official’s conduct.”169 Our Supreme Court explained
qualified immunity protects “all but the plainly
incompetent or those who knowingly violate the law.”170
To determine whether a right is “clearly
established,” we ask whether “it would be clear to a
reasonable officer that his conduct was unlawful in the
situation he confronted.”171 This inquiry requires we
look at “the specific context of the case,” rather than
defining the constitutional right “as a broad general
proposition.”172 “‘If the officer’s mistake as to what the
law requires is reasonable,’ the officer is entitled to
qualified immunity.”173
i. A t t o r n e y
Marks
and
Investigator Brill reasonably
believed they could prosecute
Dr. Karkalas for selling
Fioricet on the internet.
Attorney Marks and Investigator Brill argue they
did not violate “clearly established” law because they
reasonably believed the Drug Enforcement Agency
criminalized the sale of Fioricet based on the law at the
time of the indictment. Dr. Karkalas does not deny he
distributed Fioricet and Fioricet contains butalbital, a
controlled substance. He instead argues Attorney
Marks and Investigator Brill unlawfully prosecuted
him because Fioricet is not a controlled substance and
thus he did not violate the Controlled Substances Act.
Attorney Marks and Investigator Brill argue because

App. 50
several district courts—including the District Court for
the District of Minnesota in Dr. Karkalas’s criminal
case—held the Drug Enforcement Agency did not
exempt Fioricet from the criminal provisions of the
Controlled Substances Act, they reasonably believed
they could prosecute Dr. Karkalas for selling Fioricet.
Attorney Marks and Investigator Brill cite three
district court cases—including Dr. Karkalas’s own
criminal case—denying criminal defendants’ motions to
dismiss an indictment for the sale of Fioricet.174 The
district court in United States v. Williams ruled three
years before Dr. Karkalas’s 2013 indictment, while the
court in United States v. Riccio ruled two years before
Dr. Karkalas moved to dismiss his indictment. Dr.
Karkalas cites a single case in which the district court
dismissed an indictment for sale of Fioricet after denial
of the motion in Dr. Karkalas’s case.175 Neither party
cites authority from the Supreme Court or the court of
appeals concerning whether the United States can
prosecute for sale of Fioricet under the Controlled
Substances Act.
In Williams, the District Court for the Western
District of Oklahoma upheld an indictment for sale of
Fioricet without a valid prescription in 2010, three
years before Dr. Karkalas’s indictment.176 The United
States charged Mr. Williams with violating the
Controlled Substances Act for conspiring to sell Fioricet
on the internet without valid prescriptions.177 Mr.
Williams moved to dismiss the indictment arguing
Fioricet is not a controlled substance under the Act.
The district court denied Mr. Williams’s motion to
dismiss. The court explained Fioricet contains

App. 51
butalbital, a derivative of barbituric acid.178 Under the
Controlled Substances Act, Congress classifies as a
Schedule III drug “[a]ny substance which contains any
quantity of a derivative of barbituric acid[.]”179 Under
Section 811, the Drug Enforcement Agency may
“exempt any compound, mixture, or preparation
containing a controlled substance from the application”
of the Act.180 In its Exempting Regulation, the Agency
exempted Fioricet from the application of several
provisions of the Act “for administrative purposes
only.”181 The court explained the Agency did not exempt
Fioricet from the criminal provisions of the Act,
including the provision under which the United States
charged Mr. Williams.182 The court denied the motion
to dismiss the indictment holding the United States
could prosecute Mr. Williams for sale of Fioricet
without a valid prescription.183
In Riccio, a grand jury indicted ten defendants for
conspiring to sell Fioricet online using an internet
pharmacy company.184 The grand jury returned an
indictment against Mr. Lasher under 21 U.S.C.
§ 841(h), prohibiting a person from “deliver[ing],
distribut[ing], or dispens[ing] a controlled substance by
means of the Internet.”185 The United States argued
Fioricet is a controlled substance because it contains
butalbital, a Schedule III controlled substance under
the Controlled Substances Act.186 Mr. Lasher moved to
dismiss the indictment arguing the Drug Enforcement
Agency exempted Fioricet from the Controlled
Substances Act.
The District Court for the Southern District of New
York in August 2014 denied Mr. Lasher’s motion to

App. 52
dismiss holding, in agreement with the district court in
Williams, the Drug Enforcement Agency did not
exempt Fioricet from the criminal provisions of the
Controlled Substances Act. The court found the
decision in Williams constituted “the only judicial
precedent on point.”187 The court explained Congress
defined Schedule III controlled substances under the
Act to include “[a]ny substance which contains any
quantity of a derivative of barbituric acid, or any salt of
a derivative of barbituric acid.”188 Since Fioricet
contains butalbital, a barbituric acid derivative, the
district court found “there is no dispute” Fioricet is a
Schedule III drug.189
The district court further explained Congress under
the Act allows the Drug Enforcement Agency to
“exempt any compound, mixture, or preparation
containing a controlled substance from the application
of all or any part” of the subchapter of the Controlled
Substance Act dealing with Control and
Enforcement.190 The Drug Enforcement Agency
exempted Fioricet from certain sections of the Act “for
administrative purposes only.”191 But the district court
held based on the “plain language” of the Exempting
Regulation the Drug Enforcement Agency did not
exempt Fioricet from the criminal provisions of the
Act.192 The court explained the statutory and regulatory
framework of the Controlled Substance Act shows
Congress intended to separate administrative and
criminal enforcement of the Act.193 The Drug
Enforcement Agency exempted Fioricet from the Act’s
administrative regulations concerning “registration,
labeling, packaging, record-keeping and security
requirements.”194 Because the Drug Enforcement

App. 53
Agency did not expressly exempt Fioricet from the
criminal provision under which the United States
charged Mr. Lasher, the court held the Drug
Enforcement Agency did not intend to exempt Fioricet
from criminal enforcement. The court cited the decision
in Williams to support its holding.195 The district court
also rejected the defendant’s argument for vagueness
in the statutory scheme.196
In his criminal case, Dr. Karkalas moved to dismiss
the indictment against him arguing Fioricet is not a
“controlled substance” under the Controlled Substances
Act because (1) the Drug Enforcement Agency did not
list Fioricet on any schedules and (2) the Drug
Enforcement Agency listed Fioricet on the “Exempt
Prescription Products List.”197 The District Court for
the District of Minnesota held “the plain language of
the Exempting Regulation” shows “Fioricet is not
exempt from the criminal provisions of the [Controlled
Substances Act].”198 The court explained the Drug
Enforcement Agency exempted Fioricet from portions
of the Controlled Substances Act “for administrative
purposes only.”199 The district court further explained
the district courts in Williams and Riccio also denied
motions to dismiss indictments holding the Drug
Enforcement Agency only exempted Fioricet from
administrative regulations concerning labeling and
packaging, but not the criminal provisions of the
Controlled Substances Act.200
Dr. Karkalas cites a single case in which a district
court granted a motion to dismiss holding the Drug
Enforcement Agency exempted Fioricet from the
criminal provisions of the Controlled Substances Act.201

App. 54
The United States charged the defendant in United
States v. Akinyoyenu with selling Fioricet without a
valid prescription.202 The district court cited Riccio,
Williams, and Mr. Karkalas’s criminal case and agreed
with these courts the Drug Enforcement Agency
considers Fioricet a controlled substance.203 But the
court explained the Drug Enforcement Agency
exempted Fioricet from the Section 829 of the Act
requiring a prescription for sale of a Schedule III
controlled substance.204 Thus, the court explained
because the Agency exempted Fioricet from the
regulation requiring a prescription to sell a drug, it did
not intend to criminalize the sale of Fioricet without a
valid prescription.205 The court believed the Agency
accidentally left the phrase “for administrative
purposes only” in the Exempting Regulation.206 The
court admitted the scope of regulations concerning
Fioricet was “more convoluted than for the usual
case[.]”207
The district court in Akinyoyenu distinguished Dr.
Karkalas’s criminal case. The court explained unlike
the defendant in Akinyoyenu, the United States also
charged Dr. Karkalas with violating Section 831 of the
Act mandating a person selling drugs through an
online pharmacy must disclose certain information on
the pharmacy’s website.208 The court explained the
Drug Enforcement Agency did not exempt Fioricet from
Section 831.209
Qualified immunity bars Dr. Karkalas’ s claims for
unlawful prosecution and detention against Attorney
Marks and Investigator Brill. District courts at the
time of Dr. Karkalas’s indictment rejected the

App. 55
argument the Drug Enforcement Agency exempted
Fioricet from criminal provisions of the Controlled
Substances Act. Even considering the decision in
Akinyoyenu, a federal official could not be certain
pursuing a conviction for selling Fioricet violated a
citizen’s Fourth Amendment rights. Qualified
immunity bars Dr. Karkalas’s claims unless “it would
be clear to a reasonable officer” Attorney Marks’s and
Investigator Brill’s conduct “was unlawful in the
situation [they] confronted.”210 Other district courts
held the Drug Enforcement Agency did not exempt
Fioricet from criminal provisions of the Act, including
the District Court for the District of Minnesota in Dr.
Karkalas’s case. We cannot say it would be clear to an
officer prosecuting Dr. Karkalas’s case “was unlawful.”
Although Dr. Karkalas argues the Food and Drug
Administration did not specifically designate Fioricet
a controlled substance, he admits Congress designated
butalbital, an ingredient in Fioricet, a controlled
substance. On August 30, 2018, the District Court for
the Southern District of New York denied a habeas
petition for a conviction for selling Fioricet rejecting the
argument Fioricet is not a controlled substance.211
Dr. Karkalas also argues Fioricet is not a controlled
substance because on May 24, 2011, Michele M.
Leonhart, the Administrator of the Drug Enforcement
Agency testified before the United States Senate
“Fioricet was exempt from the purview of the CSA.”212
But on August 30, 2011, Deputy Administrator Joseph
T. Rannazzisi clarified Ms. Leonhart did “not intend[]
to deviate in any way from 21 C.F.R. 1308.32 [i.e., the
Exempting Regulation.]”213 Rather, Mr. Rannazzisi
affirmed “the exemption from certain provisions of the

App. 56
Controlled Substances Act and [Drug Enforcement
Agency] regulations is for administrative purposes
only. Any person who unlawfully distributes Fioricet
remains subject to criminal liability under the Act.”214
We do not opine whether Fioricet is a controlled
substance. But based on the uncertainty of the law at
the time of Mr. Karkalas’s trial, we cannot say
Attorney Marks and Investigator Brill acted
unreasonably in prosecuting Dr. Karkalas for selling
Fioricet on the Internet.
ii. Attorney Marks and Investigator
Brill reasonably relied on the
indictment in establishing
probable cause for prosecuting
Dr. Karkalas.
Attorney Marks and Investigator Brill also argue
they did not violate any clearly established right
because they relied on the grand jury’s indictment in
prosecuting Dr. Karkalas. Dr. Karkalas admits a grand
jury indicted him.215
To establish a malicious prosecution claim, Dr.
Karkalas “must plead sufficient facts to support a
reasonable inference that the defendants acted without
probable cause and are not entitled to qualified
immunity.”216 A person’s right “to be free from
prosecutions on criminal charges that lack probable
cause” is clearly established.217 But in malicious
prosecution actions, “a grand jury indictment or
presentment constitutes prima facie evidence of
probable cause to prosecute[.]”218

App. 57
In Cobb v. Truong, a grand jury indicted Mr. Cobb
with various crimes stemming from the plaintiff’s
alleged involvement with a drug-trafficking
conspiracy.219 The prosecutor took the charges to trial,
but a jury acquitted Mr. Cobb on all counts.220 Mr. Cobb
sued the prosecutor for malicious prosecution. Like Dr.
Karkalas, Mr. Cobb alleged the prosecutor made false
statements to the grand jury and withheld information
regarding his role in the conspiracy to obtain an
indictment.221
The District Court for the Western District of
Pennsylvania explained to plead a malicious
prosecution claim, the plaintiff “must plead sufficient
facts to support a reasonable inference that the
defendants acted without probable cause.”222 Noting a
grand jury indictment “constitutes prima facie evidence
of probable cause to prosecute,” the court explained the
plaintiff must allege facts showing “the indictment was
procured by fraud, perjury or other corrupt means” to
overcome the presumption of probable cause.223 The
court held the plaintiff failed to plead facts to overcome
the presumption of probable cause.224 The court held
plaintiff’s legal conclusions of a lack of probable cause
“[did] not supply the factual matter needed to proceed
with rebutting the presumption of regularity from the
grand jury’s return of the indictment.”225
Dr. Karkalas admits a grand jury indicted him in
2013.226 But he merely concludes the lack of probable
cause because Attorney Marks and Investigator Brill
made “knowingly false presentations” to the grand
jury.227 Beyond conclusions, he fails to allege the “false
presentations” Attorney Marks and Investigator Brill

App. 58
made to the grand jury. As the district court explained
in Cobb, Dr. Karkalas cannot plead lack of probable
cause with such bare conclusions.228 He bases his claim
for lack of probable cause on his allegation Attorney
Marks and Investigator Brill knew Fioricet is not a
controlled substance. But most courts facing this
issue—including the district court in Dr. Karkalas’s
case—held the Drug Enforcement Agency did not
exempt Fioricet from criminal provisions of the
Controlled Substances Act. We cannot say “it would be
clear to a reasonable officer” the conduct here “was
unlawful in the situation [they] confronted.”
Dr. Karkalas argues Attorney Marks and
Investigator Brill prosecuted without probable cause
because they lacked evidence Dr. Karkalas knew
Fioricet is a controlled substance but told the grand
jury Dr. Karkalas knew Fioricet is a controlled
substance. He alleges Attorney Marks and Investigator
Brill “never had any evidence that Dr. Karkalas knew
he was breaking the law, even though violations of the
[Controlled Substances Act] have a mens rea
requirement.”229
Dr. Karkalas still fails to rebut the presumption of
probable cause because he fails to allege facts showing
Attorney Marks and Investigator Brill procured the
indictment through “fraud, perjury, or other corrupt
means.”230 Dr. Karkalas admits he prescribed Fioricet
and Fioricet contains butalbital, a controlled substance.
The weight of authority at the time of Dr. Karkalas’s
indictment showed the sale of Fioricet violated the
Controlled Substances Act. The district court in his
criminal case denied Dr. Karkalas’s motion to dismiss

App. 59
the indictment charging him with the sale of Fioricet.231
Concerning mens rea, the trial court in rulings
following Dr. Karkalas’s trial explained the United
States argued to establish the mens rea requirement in
the case, the Controlled Substances Act “only requires
that [the United States] prove the defendants
knowingly distributed Fioricet, not that the defendants
knew Fioricet was a controlled substance.”232 The trial
court rejected this argument and explained the United
States must prove Dr. Karkalas knew he distributed a
controlled substance, not merely he knew he
distributed Fioricet.233 The trial court found the United
States misinterpreted Supreme Court precedent
concerning what the United States must prove for a
defendant’s state of mind under the Controlled
Substances Act.234 But the district court found even
considering the mistake concerning mens rea for the
Controlled Substances Act charge, the United States
did not prosecute without probable cause.235
Given the secrecy of the grand jury proceeding, we
question how Dr. Karkalas knows what Attorney
Marks and Investigator Brill told the grand jury
concerning his mens rea for the crime, especially
considering the trial court in his criminal case
explained Attorney Marks based her argument on a
different—although mistaken—understanding of the
mens rea requirement. Even so, the district court
explained notwithstanding the mistake concerning the
mens rea requirement, Attorney Marks did not
prosecute without probable cause.236 Dr. Karkalas
alleges Attorney Marks and Investigator Brill knew Dr.
Karkalas did not know Fioricet is a controlled
substance because he told them. But Attorney Marks

App. 60
and Investigator Brill need not “accept a suspect’s
innocent explanation at face value.”237 A prosecutor
would never bring a case if a suspect’s assertion of
innocence negated probable cause.
Attorney Marks and Investigator Brill relied on the
grand jury’s indictment and Dr. Karkalas fails to allege
facts showing they procured the indictment through
improper means. Attorney Marks and Investigator
Brill did not violate Dr. Karkalas’s clearly established
rights as they relied on the grand jury’s indictment to
prosecute Dr. Karkalas. Qualified immunity bars Dr.
Karkalas’s claims against Attorney Marks and
Investigator Brill.
We dismiss Dr. Karkalas’s claims against Attorney
Marks and Investigator Brill.
B. We dismiss Dr. Karkalas’s Federal Tort
Claims Act claims against the United
States.
Dr. Karkalas sues the United States under the
Federal Tort Claims Act for malicious prosecution. The
United States argues it has not waived sovereign
immunity because (1) Attorney Marks and
Investigators are not “investigative or law enforcement
officers” under the Act and (2) the discretionary
function exception applies. The United States also
argues Dr. Karkalas fails to state a claim for malicious
prosecution.

App. 61
1. Attorney
Marks
is
not
an
investigative or law enforcement
officer under 28 U.S.C. § 2680(h).
The United States argues Dr. Karkalas cannot sue
under the Federal Tort Claims Act because Attorney
Marks and Investigator Brill are not “investigative or
law enforcement officers.”
“Absent a waiver, sovereign immunity shields the
Federal Government and its agencies from suit.”238
Congress partially waived sovereign immunity with the
Federal Tort Claims Act, the “exclusive waiver of
sovereign immunity for actions sounding in tort against
the United States, its agencies and officers acting
within their official capacity.”239 Under the Act, we
have jurisdiction over damage claims against the
United States “for injury or loss of property, or
personal injury or death caused by the negligent or
wrongful act or omission of any employee of the
Government while acting within the scope of his office
or employment, under circumstances where the United
States, if a private person, would be liable to the
claimant in accordance with the law of the place where
the act or omission occurred.”240
Congress did not waive sovereign immunity for
claims “arising out of assault, battery, false
imprisonment, false arrest, malicious prosecution,
abuse of process, libel, slander, misrepresentation,
deceit, or interference with contract rights[.]”241 But the
exception to the waiver does not apply to “investigative
or law enforcement officers of the United States
Government.” 242 Dr. Karkalas may sue an
“investigative or law enforcement officer” under the

App. 62
Act. Congress defined “investigative or law
enforcement officer” as a United States officer
“empowered by law to execute searches, to seize
evidence, or to make arrests for violations of Federal
law.”243 Prosecutors are not “investigative or law
enforcement officers” under the Federal Tort Claims
Act.244
The United States argues Attorney Marks and
Investigator Brill do not qualify as “investigative or law
enforcement officers” under section 2680(h) of the
Federal Tort Claims Act. Attorney Marks, as a
prosecutor, is not an “investigative or law enforcement
officer” under the Act. The United States has not
waived sovereign immunity for Attorney Marks’s
conduct.
Investigator Brill is a diversion investigator with
the Drug Enforcement Agency. Under its regulations,
the Agency authorizes diversion investigators “to
administer oaths and serve subpoenas under 21 U.S.C.
§§ 875 and 876; to conduct administrative inspections
and execute administrative inspection warrants under
21 U.S.C. §§ 878(2) and 880; to seize property incident
to compliance and registration inspections and
investigations under 21 U.S.C. § 881; and to seize or
place controlled substances under seal pursuant to 21
U.S.C. § 824.”245
Only one court decided whether a Drug
Enforcement Agency diversion investigator is an
“investigative or law enforcement officer” under the
Federal Tort Claims Act.246 In Nguyen Estate of
Carlisle, the District Court for the Northern District of
Florida held diversion investigators are “investigative

App. 63
or law enforcement officers” because they “are
empowered to seize property” under the Agency’s
regulations, and one of the three alternative
characteristics of an “investigative or law enforcement
officer” in Section 2680(h) is the ability to seize
evidence.247 We agree. The Agency authorizes diversion
investigators to seize evidence. Investigator Brill is an
“investigative or law enforcement officer” under the
Federal Tort Claims Act.
We dismiss Dr. Karkalas’s claims against the
United States to the extent he bases them on Attorney
Marks’s conduct since Attorney Marks is not an
“investigative or law enforcement officer.”
2. The discretionary function exception
under 28 U.S.C. § 2680(a) bars Dr.
Karkalas’s claims against the United
States.
Attorney Marks and Investigator Brill also argue
the discretionary function exception in the Federal Tort
Claims Act bars Dr. Karkalas’s claims. Under the
discretionary function exception, Congress bars suits
against the United States challenging “the exercise or
performance or the failure to exercise or perform a
discretionary function or duty on the part of a federal
agency or an employee of the Government, whether or
not the discretion involved be abused.”248
The Supreme Court developed a two-part test to
determine whether the discretionary function exception
applies.249 We first ask whether “the act giving rise to
the alleged injury and thus the suit involves an
‘element of judgment or choice.’”250 If so, we ask

App. 64
“whether that judgment is of the kind that the
discretionary function exception was designed to
shield.”251 Investigative activity is “precisely the kind of
policy-rooted decisionmaking that section 2680(a) was
designed to safeguard.”252
Investigative decisions and decisions to prosecute
fall within the discretionary function exception.253 In
Barbieri v. United States, an FBI agent investigated an
attorney for assisting his client with bankruptcy
fraud.254 Following the investigation, a grand jury
indicted the attorney for bankruptcy fraud but a jury
later acquitted the attorney.255 Like Dr. Karkalas, the
attorney sued for malicious prosecution under the
Federal Tort Claims Act. The attorney alleged the FBI
agent commenced a “sham investigation” because the
attorney did not provide his client’s file to the United
States.256 He also alleged the prosecutor and the FBI
agent presented “patently false and misleading
information” to the grand jury.257
Judge Goldberg in our District found the
discretionary function exception barred the attorney’s
malicious prosecution claims. Under the first element
of the two-part test, Judge Goldberg found the
investigation and decision to prosecute are “entirely
discretionary.”258 Under the second element, Judge
Goldberg explained the discretionary exception
function shields decisions “grounded in social,
economic, and political policy[.]”259 He explained the
discretionary function exception bars the attorney’s
claims because the investigation and decision to
prosecute are “policy-based in nature”—conduct the

App. 65
discretionary function exception “was designed to
shield.”260
Dr. Karkalas alleges Investigator Brill “focused her
investigations on the methods by which prescription
drugs are diverted into illegal markets.”261 He alleges
Investigator Brill investigated Rx Limited and its
online activity involving Fioricet and determined it
prescribed Fioricet without a doctor-patient
relationship.262 Investigator Brill brought the case to
the U.S. Attorney’s Office in Minneapolis and then to
the Consumer Protection Branch of the Department of
Justice in Washington, D.C.263 Attorney Marks in the
Consumer Protection Branch decided to prosecute the
case. Like the attorney in Barbieri, Dr. Karkalas
alleges Attorney Marks and Investigator Brill launched
an “unlawful investigation and prosecution of” him and
“knowing[ly] present[ed] . . . false and misleading
testimony and evidence to the Grand Jury[.]”264
The discretionary function exception shields
Investigator Brill’s and Attorney Marks’s conduct.265
The investigation and decision to prosecute Dr.
Karkalas are discretionary. Investigator Brill’s and
Attorney Marks’s determinations are policy-based, and
thus the discretionary function exception shields this
conduct from tort liability, even for claims alleging
false statements to a grand jury.266
Dr. Karkalas argues our Court of Appeals held if a
plaintiff alleges a federal official violated his
constitutional rights—like Dr. Karkalas does here—a
court could not apply the discretionary function
exception “since federal officials do not possess
discretion to commit such violations.”267 Judge

App. 66
Goldberg faced the same argument. He persuasively
explained the Supreme Court declined to recognize
constitutional torts under the Federal Tort Claims Act
after our Court of Appeals’ holding in Pooler v. United
States.268 We agree with Judge Goldberg as the import
of the Supreme Court’s precedent. Dr. Karkalas’s
argument fails.
The United States did not waive sovereign
immunity for Dr. Karkalas’s claims.
3. Dr. Karkalas fails to state a claim for
malicious prosecution.
The United States argues even if sovereign
immunity does not bar his claim, Dr. Karkalas fails to
state a claim for malicious prosecution.
Congress does not provide a cause of action under
the Federal Tort Claims Act but rather provides a
partial waiver of sovereign immunity for torts against
the United States. Thus, Dr. Karkalas’s malicious
prosecution claim against the United States arises
under state law.269 An essential element of malicious
prosecution, under either Minnesota or Pennsylvania
law, is a prosecution without probable cause.270
Dr. Karkalas bases his claim for malicious
prosecution on his assertion Fioricet is not a controlled
substance under the Controlled Substances Act. But as
we explained in detail, Attorney Marks and
Investigator Brill relied on two district court cases, and
the district court in Dr. Karkalas’s criminal case,
holding Fioricet is a controlled substance and the Drug
Enforcement Agency did not exempt Fioricet from the
criminal provisions of the Controlled Substances Act.

App. 67
Dr. Karkalas also admits a grand jury indicted him. An
indictment provides a rebuttable presumption probable
cause existed.271
Dr. Karkalas fails to allege facts showing Attorney
Marks and Investigator Brill prosecuted him without
probable cause. He fails to state a claim for malicious
prosecution.
III.

Conclusion.

In an accompanying Order, we grant Attorney
Marks’s and Investigator Brill’s motion to dismiss Dr.
Karkalas’s Bivens claim for unlawful prosecution and
pretrial detention. We also grant the United States’
motion to dismiss Dr. Karkalas’s claims for malicious
prosecution under the Federal Tort Claims Act.
_____________________
1

ECF Doc. No. 8 ¶ 28

2

Id. at ¶ 31.

3

Id. at ¶ 35.

4

Id. at ¶ 36.

5

Id. at ¶ 45.

6

Id. at ¶ 36.

7

Id. at ¶ 56.

8

Id at ¶ 38.

9

Id. at ¶ 39.

10

Id.

11

Id. at ¶ 40.

12

Id.

App. 68
13

Id.

14

Id. at ¶ 41.

15

Id at ¶¶ 8, 44.

16

United States v. Oz, No. 13-273, 2016 WL 1183041, at *2 (D.
Minn. Mar. 28, 2016).
17

ECF Doc. No.8 ¶ 45.

18

Id. at ¶ 46.

19

Id. at ¶¶ 46-47.

20

Id. at ¶¶ 48-49.

21

Id. at ¶ 50.

22

Id. at ¶ 66.

23

Id. at ¶ 64.

24

Id. at ¶ 65.

25

Id. at ¶¶ 11, 67.

26

Id. at ¶ 68.

27

Id. at ¶ 69.

28

United States v. Oz, No. 13-273, 2017 WL 3531521, at *1 (D.
Minn. Aug. 17, 2017).
29

Id.

30

ECF Doc. No. 8 ¶ 80.

31

Id. at ¶ 68.

32

Id. at ¶ 11.

33

Id. at ¶ 12.

34

When considering a motion to dismiss “[w]e accept as true all
allegations in the plaintiff’s complaint as well as all reasonable
inferences that can be drawn from them, and we construe them in
a light most favorable to the non-movant.” Tatis v. Allied
Interstate, LLC, 882 F.3d 422, 426 (3d Cir. 2018) (quoting Sheridan

App. 69
v. NGK Metals Corp., 609 F.3d 239, 262 n.27 (3d Cir. 2010)). To
survive dismissal, “a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that is plausible
on its face.”’ Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “A claim has
facial plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id. (citing
Twombly, 550 U.S. at 556). Our Court of Appeals requires us to
apply a three-step analysis under a 12(b)(6) motion: (1) “it must
‘tak[e] note of the elements [the] plaintiff must plead to state a
claim;”’ (2) “it should identify allegations that, ‘because they are no
more than conclusions, are not entitled to the assumption of
truth;”’ and, (3) “[w]hen there are well-pleaded factual allegations,
[the] court should assume their veracity and then determine
whether they plausibly give rise to an entitlement for relief.”
Connelly v. Lane Constr. Corp., 809 F.3d 780, 787 (3d Cir. 2016)
(quoting Iqbal, 556 U.S. at 675, 679).
35

ECF Doc. No. 12.

36

ECF Doc. No. 14.

37

Fed. R. Civ. P. 4(k) (“Serving a summons or filing a waiver of
service establishes personal jurisdiction over a defendant who is
subject to the jurisdiction of a court of general jurisdiction in the
state where the district court is located[.]”).
38

42 Pa. C.S. § 5322(b).

39

O’Connor v. Sandy Lane Hotel Co., 496 F.3d 312, 316 (3d Cir.
2007).
40

Walden v. Fiore, 571 U.S. 277, 284 (2014) (quoting Keeton v.
Hustler Magazine, Inc., 465 U.S. 770, 775 (1984)).

41

Id. (emphasis supplied).

42

Id. at 285.

43

Id. at 286.

44

Id.

App. 70
45

Id. (quoting Burger King Corp. v. Rudzewicz, 471 U.S. 462, 475
(1985)).
46

Id. at 284.

47

Id. at 282.

48

Id. at 291.

49

Id. at 288-89.

50

Id. at 291.

51

ECF Doc. No. 8 ¶ 17.

52

Id. at ¶ 22.

53

ECF Doc. No. 12-1, at p. 24.

54

ECF Doc. No. 8 ¶ 17.

55

Walden, 571 U.S. at 286.

56

28 U.S.C. § 1391(b).

57

ECF Doc. No. 8 ¶ 17.

58

Cottman Transmission Sys., Inc. v. Martino, 36 F.3d 291,294 (3d
Cir. 1994).

59

Id. at 295.

60

RAIT P’ship, L.P. v. Fieldstone Lester Shear & Denberg, LLP,
No. 09-28, 2009 WL 3297310, at *5 (D. Del. Oct. 14, 2009) (citing
Traynor v. Liu, 495 F. Supp. 2d 444, 450 (D. Del. 2007)).
61

Fisher v. King, No. 15-2081, 2015 WL 7016527, at *2 (M.D. Pa.
Nov. 12, 2015) (citing Cottman, 36 F.3d at 294).
62

ECF Doc. No. 12-1, at p. 25.

63

ECF Doc. No. 8 ¶¶ 46-47.

64

Id. at ¶ 17.

65

403 U.S. 388 (1971).

66

Turner v. Doe, No. 15-5942, 2018 WL 2278096, at *3 (D.N.J. May
18, 2018).

App. 71
67

Bivens, 403 U.S. at 389.

68

Id.

69

Id. at 389-90.

70

Id. at 390.

71

Id. at 397.

72

Id. at 392 (quoting Bell v. Hood, 327 U.S. 678, 684 (1946)).

73

Bistrian v. Levi, 912 F.3d 79, 89 (3d Cir. 2018) (quoting
Vanderklok v. United States, 868 F.3d 189, 200 (3d Cir. 2017)).

74

137 S. Ct. 1843, 1853 (2017).

75

Ziglar, 137 S. Ct. at 1853-54.

76

Id. at 1857 (quoting Ashcroft v. Iqbal, 556 U.S. 662, 675 (2009)).

77

Bivens, 403 U.S. at 397.

78

Davis v. Passman, 442 U.S. 228, 230 (1979).

79

Carlson v. Green, 446 U.S. 14, 19 (1980).

80

Ziglar, 137 S. Ct. at 1857.

81

Id. at 1860.

82

Id. at 1864.

83

Id.

84

Id. at 1861 (allowing a damages claim in this context would
“interfere in an intrusive way with sensitive functions of the
Executive Branch”).

85

Id.

86

Id. at 1862-63.

87

Id. at 1865.

88

Vanderklok, 868 F.3d at 200 (citing Ziglar, 137 S. Ct. at 1856).

89

Id. (citing Wilkie v. Robbins, 551 U.S. 537, 550 (2007)).

90

Ziglar, 137 S. Ct. at 1859.

App. 72
91

Id. at 1860.

92

Vanderklok, 868 F.3d at 200 (quoting Minneci v. Pollard, 565
U.S. 118, 126 (2012)).
93

Ziglar, 137 S. Ct. at 1858.

94

Vanderklok, 868 F.3d at 205.

95

Ziglar, 137 S. Ct. at 1860.

96

Lane v. Schade, No. 15-1568, 2018 WL 4571672, at *6 (D.N.J.
Sept. 24, 2018).
97

Id. at *2.

98

Id. at *3.

99

Id. at *7.

100

Id. (“[T]he Court will not recognize a Bivens remedy for Lane’s
claims of malicious abuse of process or malicious prosecution.”).
101

Lee v. Janosko, No. 18-1297, 2019 WL 2392661, at *4 (W.D. Pa.
June 6, 2019).
102

18 U.S.C. § 3501.

103

Janosko, 2019 WL 2392661, at *5.

104

Id. (quoting Vennes v. An Unknown No. of Unidentified Agents
of U.S., 26 F.3d 1448, 1452 (8th Cir. 1994)).
105

Ziglar, 137 S. Ct. at 1857-58.

106

ECF Doc. No. 8 ¶ 80 (suing under Bivens for “illegal prosecution
of Dr. Karkalas, the unlawful seizure of and the presentation of
false and misleading evidence and testimony to the Grand Jury
regarding Dr. Karkalas’ involvement with RXL.”).
107
108

Bivens, 403 U.S. at 389.

Farah v. Weyker, 926 F.3d 492, 499 (8th Cir. 2019) (finding a
“new context” for a Bivens action when plaintiff complained
arresting officer presented false information to prosecutors and
grand jury explaining “information-gathering and case-building

App. 73
activities are a different part of police work than the apprehension,
detention, and physical searches at issue in Bivens”).
109

ECF Doc. No. 15, at p. 7.

110

Ziglar, 137 S. Ct. at 1859 (explaining even when the right at
issue and the “mechanism of injury” resemble one of the three
Bivens cases, the case can still present a “new context”).

111

Id. at 1860 ( explaining the Court recognized an implied action
in Bivens under the Fourth Amendment and an action in Davis
under the Fifth Amendment).
112

Id. at 1859.

113

ECF Doc. No. 15, at p. 8 (citing Manuel v. City of Joliet, Ill., 137
S. Ct. 911 (2017)).
114

Manuel, 137 S. Ct. at 915.

115

Id. at 919-20.

116

Ziglar, 137 S. Ct. at 1859.

117

Manuel, 137 S. Ct. at 919-20.

118

Ziglar, 137 S. Ct. at 1858.

119

Wilkie, 551 U.S. at 550.

120

Brunoehler v. Tarwater, 743 F. App’x 740, 752 (9th Cir. 2018)
(provision providing for civil damages for official’s violation of the
Wiretap Act counseled against extending Bivens to Fourth
Amendment claim for illegal wiretap).
121

United States v. Oz, No. 13-273, 2016 WL 1183041, at *7 (D.
Minn. Mar. 28, 2016).
122

18 U.S.C. § 3006A; United States v. Manzo, 712 F.3d 805, 810
(3d Cir. 2013) (explaining a successful criminal defendant can
move for attorneys’ fees and costs under the Hyde Amendment for
a “prosecution brought vexatiously, in bad faith, or so utterly
without foundation in law or fact as to be frivolous”).
123

28 U.S.C. § 2513(a).

124

Id. § 2513(e).

App. 74
125

Farah v. Weyker, 926 F.3d 492 (8th Cir. 2019).

126

Id. at 496.

127

Id. at 496-97.

128

Id. at 501-02.

129

Id. at 500.

130

28 U.S.C. § 2513.

131

Farah, 926 F.3d at 501.

132

Id. at 502.

133

Id. (quoting Ziglar, 137 S. Ct. at 1858).

134

Id. (quoting Ziglar, 137 S. Ct. at 1863).

135

ECF Doc. No. 15, at p. 10.

136

Oz, 2017 WL 3531521, at *l.

137

ECF Doc. No. 8 ¶ 70.

138

Ziglar, 137 S. Ct. at 1857 (quoting Carlson, 446 U.S. at 18).

139

Vanderklok, 868 F.3d at 206 (quoting Wilkie, 551 U.S. at 554).

140

Id. (quoting Ziglar, 137 S. Ct. at 1858).

141

Ziglar, 137 S. Ct. at 1858.

142

Farah, 926 F.3d at 499.

143

Id. at 500.

144

Id.

145

Id. at 501.

146

Id.

147

ECF Doc. No. 8 ¶ 80 (suing Attorney Marks and Investigator
Brill for the “illegal prosecution of Dr. Karkalas, the unlawful
seizure of and the presentation of false and misleading evidence
and testimony to the Grand Jury regarding Dr. Karkalas’
involvement with RXL”).

App. 75
148

Vanderklok, 868 F.3d at 189.

149

Id. at 194.

150

Id. at 195.

151

Id. at 208.

152

Id. at 203 (citing 28 U.S.C. § 2680(h)).

153

Id. at 208.

154

Id. at 209.

155

49 U.S.C. § 44903(a)(2) (defining “law enforcement personnel”
under the Aviation and Transportation Security Act).
156

28 C.F.R. § Pt. 0, Subpt. R, App.§ 3(b) (regulation governing
delegation of functions to officers and employees of the Drug
Enforcement Agency).
157

Id. at §§ 3(a)-(b).

158

See 21 U.S.C. § 882.

159

Id. § 882(a).

160

Id. § 882(c)(5).

161

Id. § 882(c)(6)(C).

162

McLaughlin v. Henry, No. 19-9451, 2019 WL 2588758, at *4
(D.N.J. June 24, 2019) (quoting Yarris v. Cty. of Delaware, 465
F.3d 129, 135 (3d Cir. 2006)).
163

Burns v. Reed, 500 U.S. 478, 485 (1991).

164

Newsome v. City of Newark, No. 13-06234, 2014 WL 4798783, at
*3 (D.N.J. Sept. 25, 2014) (citing Rose v. Bartle, 871 F.2d 331, 344
(3d Cir. 1989) (explaining solicitation of false testimony for
presentation to the grand jury encompassed within “the
preparation necessary to present a case” and therefore
immunized)).
165

ECF Doc. No. 8 ¶ 22.

166

Id. at ¶ 45.

App. 76
167

Id. at ¶ 65.

168

ECF Doc. No. 15, at p. 16 (quoting Yarris, 465 F.3d at 135).

169

L.R. v. Sch. Dist. of Philadelphia, 836 F.3d 235, 241 (3d Cir.
2016) (quoting Pearson v. Callahan, 555 U.S. 223, 232 (2009)); see
also D.C. v. Wesby, 138 S. Ct. 577, 589 (2018).
170

Ziglar, 137 S. Ct. at 1867 (quoting Malley v. Briggs, 475 U.S.
335, 341 (1986)).
171

Couden v. Duffy, 446 F.3d 483, 492 (3d Cir. 2006) (quoting
Saucier v. Katz, 533 U.S. 194, 202 (2001)).
172

Mullenix v. Luna, 136 S. Ct. 305, 308 (2015).

173

Couden, 446 F.3d at 492 (quoting Saucier, 533 U.S. at 205).

174

United States v. Oz, No. 13-273, 2016 WL 1183041 (D. Minn.
Mar. 28, 2016); United States v. Riccio, 43 F. Supp. 3d 301
(S.D.N.Y. 2014); United States v. Williams, No. 10-0216, 2010 WL
4669180 (W.D. Okla. Nov. 9, 2010).
175

United States v. Akinyoyenu, 199 F. Supp. 3d 106 (D.D.C. 2016).

176

Williams, 2010 WL 4669180, at *1.

177

Id.

178

Id. at *1 n.2.

179

21 U.S.C. § 812(c) (list of Schedule III drugs).

180

Id. § 811(g)(3).

181

21 C.F.R. § 1308.32.

182

Williams, 2010 WL 4669180, at *1.

183

Id. at *1.

184

Riccio, 43 F. Supp. 3d at 304.

185

21 U.S.C. § 841(h).

186

Riccio, 43 F. Supp. 3d at 304 (citing 21 U.S.C. § 841(b)(1)(E)).

187

Id. at 305.

App. 77
188

Id. at 304 (citing 21 U.S.C. § 812, Schedule III, Part (b)(1)).

189

Id.

190

Id. (quoting 21 U.S.C. § 811(g)).

191

21 C.F.R. § 1308.32.

192

Riccio, 43 F. Supp. 3d at 305.

193

21 C.F.R. § 1301.41 (“Any hearing under this part shall be
independent of, and not in lieu of, criminal prosecutions or other
proceedings under the Act or any other law of the United States.”).
194

Riccio, 43 F. Supp. 3d at 305.

195

Id. (citing Williams, 2010 WL 4669180, at *1 (“The Attorney
General/DEA could have exempted Fioricet ‘from the application
of all’ of subchapter I of the [Controlled Substances Act] but did
not.”)).
196

Id. at 307.

197

United States v. Oz, No. 13-273, 2016 WL 11396496, at *4 (D.
Minn. Feb. 1, 2016), report and recommendation adopted, No. 13273, 2016 WL 1183041 (D. Minn. Mar. 28, 2016).
198

Oz, 2016 WL 1183041, at *6.

199

Id. at *4 (quoting 21 C.F.R. § 1308.32).

200

Id. at* 5.

201

Akinyoyenu, 199 F. Supp. 3d at 106.

202

Id. at 108.

203

Id. at 112.

204

Id.

205

Id. at 120.

206

Id. at 117.

207

Id. at 114.

208

21 U.S.C. § 831(c) (Internet pharmacy site disclosure
information).

App. 78
209

Akinyoyenu, 199 F. Supp. 3d at 120 (quoting Oz, 2016 WL
1183041, at *7).
210

Couden, 446 F.3d at 492 (quoting Saucier, 533 U.S. at 202).

211

See Lasher v. United States, No. 12-868, 2018 WL 3979596, at
*4 (S.D.N.Y. Aug. 20, 2018). 212 ECF Doc. No. 8 ¶ 58. We may
consider public documents like Congressional testimony and Drug
Enforcement Agency memoranda as these are matters of public
record. See Buck v. Hampton Twp. Sch. Dist., 452 F.3d 256, 260 (3d
Cir. 2006) (explaining in deciding a motion to dismiss we may
consider “documents that are attached to or submitted with the
complaint” and “matters incorporated by reference or integral to
the claim, items subject to judicial notice, matters of public record,
orders, [and] items appearing in the record of the case”). Dr.
Karkalas relies on Administrator Leonhart’s statement in his
complaint. Attorney Marks filed Deputy Administrator
Rannazzisi’s response to Administrator Leonhart on the record in
Dr. Karkalas’s criminal proceeding.
213

ECF Doc. No. 12-2, at p. 54.

214

Id.

215

ECF Doc. No. 8 ¶ 44.

216

Spiker v. Whittaker, 553 F. App’x 275, 278 (3d Cir. 2014).

217

Andrews v. Scuilli, 853 F.3d 690, 705 (3d Cir. 2017).

218

Palma v. Atl. Cty., 53 F. Supp. 2d 743, 756 (D.N.J. 1999)
(quoting Rose v. Bartle, 871 F.2d 331, 353 (3d Cir. 1989)); Goodwin
v. Conway, 836 F.3d 321, 329 (3d Cir. 2016) (reaffirming holding
in Rose indictment creates “a rebuttable presumption of probable
cause”).
219

Cobb v. Truong, No. 13-1750, 2015 WL 1405438, at *3 (W.D. Pa.
Mar. 26, 2015).

220

Id. at *4.

221

Id. at *8.

222

Id.

223

Id. at *11.

App. 79
224

Id. at *9 (quoting Woodyard v. Cty. of Essex, 514 F. App’x 177,
183 (3d Cir. 2013)).
225

Id. at *10 (citingAshcroftv. Iqbal, 556 U.S. 662, 678 (2009)).

226

ECF Doc. No. 8 ¶ 44.

227

Id. at ¶ 86.

228

Cobb, 2015 WL 1405438, at *10 (“[T]endering only broad and
generalized labels and conclusions or naked assertions that are
devoid of further factual development will not supply the factual
matter needed to proceed with rebutting the presumption of
regularity from the grand jury’s return of the indictment.”); see
also Blassengale v. City of Philadelphia, No. 11-3006, 2012 WL
4510875, at *6 (E.D. Pa. Sept. 28, 2012) (dismissing malicious
prosecution claim explaining plaintiff merely concluded without
alleging facts defendant “fabricated evidence or relied heavily on
the questionable testimony of a compromised complaining witness
to secure a grand jury indictment”).
229

ECF Doc. No. 8 ¶ 71.

230

See Outen v. Office of Bergen Cty. Prosecutor, No. 12-123, 2013
WL 6054586, at *4 (D.N.J. Nov. 14, 2013) (“Mere allegations of
wrongful conduct before the grand jury, without specifically
identifying evidence that was offered by corrupt means, fails to
rebut the presumption of probable cause provided by a grand jury
indictment.”).
231

Oz, 2016 WL 1183041, at *1.

232

Oz, 2017 WL 3531521, at *4 (co-defendant’s post-trial motion for
attorneys’ fees under the Hyde Amendment).

233

Id.

234

Id. (citing McFadden v. United States, 135 S. Ct. 2298 (2015)).

235

Id. at *7.

236

Id. (explaining the government could rely on “circumstantial”
evidence—like the “volume of drugs being dispensed”—to establish
intent to support probable cause, not necessarily direct evidence).
237

Wesby, 138 S. Ct. at 593.

App. 80
238

Pellegrino v. United States Transportation Sec. Admin., Div. of
Dep’t of Homeland Sec., 896 F.3d 207, 213 (3d Cir.), reh’g en banc
granted sub nom. Pellegrino v. United States of Am. Transportation
Sec. Admin., 904 F.3d 329 (3d Cir. 2018).
239

Wilson v. Rackmill, No. 87-0456, 1990 WL 63504, at *7 (E.D. Pa.
May 11, 1990).
240

28 U.S.C. § 1346(b)(1).

241

Id. § 2680(h).

242

Id.

243

Id.

244

See Adams v. Boden, No. 18-4408, 2018 WL 5923448, at *3 (E.D.
Pa. Nov. 9, 2018) (“As a prosecutor, Boden does not qualify as an
‘investigative or law enforcement officer’ within the meaning of
§ 2680(h).”); Johnson v. Manzo, No. 18-2608, 2019 WL 1470991, at
*2 (D.D.C. Apr. 2, 2019) (dismissing plaintiff’s claim for malicious
prosecution alleging prosecutor provided false testimony to grand
jury explaining federal prosecutor is not an investigative or law
enforcement officer under§ 2680(h)).
245

28 C.F.R. § Pt. 0, Subpt. R, App. § 3.

246

Nguyen v. Estate of Carlisle, No. 04-26, 2006 WL 1653371 (N.D.
Fla. June 9, 2006), rev’d sub nom. Nguyen v. United States, 545
F.3d 1282 (11th Cir. 2008), opinion superseded on reconsideration,
556 F.3d 1244 (11th Cir. 2009), and rev’d sub nom. Nguyen v.
United States, 556 F.3d 1244 (11th Cir. 2009).
247

Id. at *4 (citing 28 U.S.C. § 2680(h)).

248

28 U.S.C. § 2680(a).

249

United States v. Gaubert, 499 U.S. 315, 322 (1991).

250

Barbieri v. United States, No. 16-3748, 2017 WL 4310255, at *4
(E.D. Pa. Sept. 28, 2017) (quoting United States v. Gaubert, 499
U.S. 315, 322 (1991)).
251

Id. (quoting Gaubert, 499 U.S. at 322-23).

252

Kelly v. United States, 924 F.2d 355, 362 (1st Cir. 1991).

App. 81
253

Barbieri, 2017 WL 4310255, at *6 (citing Pooler v. United States,
787 F.2d 868, 870 (3d Cir. 1986)) (“The conduct described in the
Amended Complaint relates to the investigation into Mr. Barbieri
and the decision to prosecute him, and such decisions are entirely
discretionary.”).
254

Id. at *2.

255

Id.

256

Id.

257

Id.

258

Id. at *4.

259

Id. at *6.

260

Id.

261

ECF Doc. No.8 ¶ 38.

262

Id. at ¶ 39.

263

Id. at ¶ 40.

264

Id. at ¶ 23.

265

Barbieri, 2017 WL 4310255, at *6 (“Because an FBI agent’s
investigatory decisions and a decision to prosecute are
determinations that are policy-based in nature, I find that the
conduct of AUSA Eve and Agent Cosgriff is the type that the
discretionary function exception was designed to shield.”).
266

Id.

267

Pooler, 787 F.2d at 871.

268

Barbieri, 2017 WL 4310255, at *6 (citing F.D.I.C. v. Meyer, 510
U.S. 471, 477 (1994)).
269

Meyer, 510 U.S. at 478 (explaining for claims under Section
1346(b) of the Act “‘law of the place’ means law of the State—the
source of substantive liability under the FTCA”).

270

Brawn v. Mercadante, 687 F. App’x 220, 223 (3d Cir. 2017)
(listing elements of malicious prosecution under Pennsylvania

App. 82
law); Dunham v. Raer, 708 N.W.2d 552, 569 (Minn. Ct. App. 2006)
(elements for malicious prosecution under Minnesota law). The
United States argues Minnesota law applies. Dr. Karkalas does
not dispute this, arguing he states a claim under either Minnesota
or Pennsylvania law.
271

Palma, 53 F. Supp. 2d at 756 (quoting Rose, 871 F.2d at 353);
Goodwin, 836 F.3d at 329 (reaffirming holding in Rose indictment
creates “a rebuttable presumption of probable cause”).

App. 83

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION
NO. 19-948
[Filed July 31, 2019]
________________________________
ELIAS KARKALAS, M.D.
)
)
v.
)
)
LINDA MARKS, ESQUIRE, et al. )
________________________________ )
ORDER
AND NOW, this 31st day of July 2019, upon
considering the Defendants’ Motions to dismiss (ECF
Doc. Nos. 12, 14), Plaintiffs Oppositions (ECF Doc. Nos.
15, 16), the individual Defendants’ Reply (ECF Doc. No.
17), and for reasons in the accompanying
Memorandum, it is ORDERED the Defendants’
Motions (ECF Doc. Nos. 12, 14) are GRANTED, we
dismiss the first amended complaint with prejudice,
and the Clerk of Court shall close this case.
s/_______________________
KEARNEY, J.

App. 84

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2816
(D.C. Civ. No. 2-19-cv-00948)
[File April 15, 2021]
___________________________________
ELIAS KARKALAS,
)
Appellant,
)
)
v.
)
)
LINDA MARKS, Esquire;
)
KIMBERLY BRILL;
)
UNITED STATES OF AMERICA
)
___________________________________ )
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN, GREENAWAY,
JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges
The petition for rehearing filed by Appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular

App. 85
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
s/ Peter J. Phipps
Circuit Judge
Date: April 15, 2021
CLW/cc: David F. McComb, Esq.
Mark B. Stern, Esq.
Daniel Wink Esq.

App. 86

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
CIVIL ACTION NO.: 2:19-cv-00948
[Filed May 10, 2019]
___________________________________
ELIAS KARKALAS, M.D.
)
80 Flintlock Lane
)
Phoenixville, PA 19460
)
)
Plaintiff,
)
)
vs.
)
)
LINDA MARKS, ESQUIRE
)
c/o U. S. Department of Justice
)
950 Pennsylvania Ave NW,
)
Washington, DC 20530;
)
)
KIMBERLY BRILL,
)
c/o U. S. Drug Enforcement
)
Administration
)
100 S. Washington Avenue, No.800, )
Minneapolis, MN 55401; and
)
)

App. 87
UNITED STATES OF AMERICA
c/o U. S. Department of Justice
950 Pennsylvania Ave NW,
Washington, DC 20530.

)
)
)
)
)
Defendants.
)
___________________________________ )
JURY TRIAL DEMANDED
FIRST AMENDED COMPLAINT
Plaintiff, Elias Karkalas, M.D. (“Dr. Karkalas”), by
and through his attorneys, brings this First Amended
Complaint against defendants, and alleges as follows:
I.

PRELIMINARY STATEMENT

1.
Dr. Karkalas, an innocent man, was
wrongfully charged with thirty-eight (38) felony counts
in an eighty-five (85) count indictment returned in the
United States District Court for the District of
Minnesota for alleged violations of the Controlled
Substances Act, 21 U.S.C. §801 et seq. (“CSA”), mail
and wire fraud, and international money laundering.
See United States of America v. Berkman, et al.
0:13-cr-00273 (D. Minn.).
2.
Over the next four (4) years, Dr. Karkalas
was wrongfully imprisoned, lived under a cloud of
prosecution, lost friends, family, and his medical
practice, and his travel was restricted.
3.
The charges, however, were false, malicious,
and entirely fabricated. The United States Government
(“Government”), with the assistance of defendants

App. 88
Kimberly Brill (“Brill”) and Linda Marks (“Marks”),
alleged that Dr. Karkalas was part of a global cartel
run by the notorious criminal Paul Calder Le Roux (“Le
Roux”), that enabled United States citizens to obtain
enormous quantities of potentially addictive
prescription drugs from hundreds of linked Internet
websites without a valid doctor-patient relationship.
The indictment charged eleven (11) people in addition
to Dr. Karkalas (“Indictment”). The case was filed in
Minnesota for no reason other than that was where
Brill worked.
4.
Dr. Karkalas’ criminal case was the result of
an investigation led by defendants Brill and Marks into
the online pharmacy known as Rx Limited (“RXL”),
which was owned by Le Roux. The Indictment alleged
that Dr. Karkalas acted in conspiracy with the other
defendants when, in fact, he neither knew them nor
ever heard of them.
5.
The ringleader of the alleged conspiracy, Le
Roux, had admitted to various crimes, including
multiple murders, but was not indicted with Dr.
Karkalas.
6.
Dr. Karkalas was charged with, among other
things, prescribing controlled substances without a
valid prescription. At no time, however, did Dr.
Karkalas issue prescriptions for controlled substances.
7.
The criminal trial against Dr. Karkalas and
others lasted several weeks and resulted in no trial
convictions.
8.
Before the Indictment was sought and
returned, defendants Marks and Brill either knew or

App. 89
recklessly disregarded the fact that Dr. Karkalas did
not violate the CSA, mail and wire fraud, and
international money laundering statutes.
9.
Further, defendants Marks and Brill knew or
recklessly disregarded the fact that Dr. Karkalas’ work
with RXL was legitimate and not part of any unlawful
scheme.
10.
The basis of the prosecution of Dr. Karkalas
was false and collapsed by its own wrongful weight,
when the jury returned a verdict of not guilty on all
counts against him.
11.
This action is brought under the United
States Constitution pursuant to Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403 U.S.
388 (1971), for the defendants’ malicious prosecution
and knowing presentation of false and misleading
testimony, and evidence to the Grand Jury, in violation
of the Fourth and Fifth Amendments.
12.
This action is also brought under the Federal
Tort Claims Act, for the tort of malicious prosecution
committed by investigative or law enforcement officers
of the United States, acting within the scope of their
employment, against Dr. Karkalas.
13.
Dr. Karkalas requests compensatory
damages, punitive damages and attorney’s fees for
these claims and violations of his rights are secured by
the Constitution of the United States.

App. 90
II.

JURISDICTION AND VENUE

14.
This Court has jurisdiction over the subject
matter of this Complaint under the Fourth and Fifth
Amendments to the United States Constitution and 28
U.S.C. § 1331 & 28 U.S.C. § 1346(b).
15.
Dr. Karkalas also brings his complaint
pursuant to 28 U.S.C. § 1332, as the parties are
completely diverse in citizenship and the amount in
controversy exceeds $75,000, exclusive of interests and
costs. Upon information and belief, defendant Marks is
a citizen of Washington, D.C., and with an address of
4114 Davis Place NW Apartment 305, Washington,
D.C. 20007, and defendant Brill is a citizen of
Minnesota with an address of 10218 Karston Court NE,
Albertville, MN 55301.
16.
On October 9, 2018, Dr. Karkalas, pursuant
to the administrative claim procedures of the Federal
Tort Claims Act, 28 U.S.C. §2671 et seq. (“FTCA”),
submitted a Standard Form (SF 95) Administrative
Tort Claim to the U.S. Department of Justice, which
the Department acknowledged receiving on October 22,
2018. The FTCA provides, at 28 U.S.C. §2675(a), that
the failure of the agency to make a final disposition
within six months of its filing shall, at the option of the
filer, be deemed a final denial of the administrative
claim for the purposes of the Act. Accordingly, Dr.
Karkalas deems the failure of the agency to make a
final disposition to constitute a final denial of his
administrative claim, and, therefore, has exhausted all
administrative remedies.

App. 91
17.
Venue is properly laid in the Eastern District
of Pennsylvania under 28 U.S.C. § 1391(b)(2), 28 U.S.C.
§ 1391(e)(1) and 28 U.S.C. § 1402(b) as the acts giving
rise to these claims took place in the Eastern District
of Pennsylvania. Among other things, defendants
Marks and Brill appeared in the Eastern District of
Pennsylvania to investigate the claims, meet with
witnesses, and secured the pre-trial detention of Dr.
Karkalas from U.S. Magistrate Judge Jacob Hart of the
Eastern District of Pennsylvania.
III.

THE PARTIES

18.
Dr. Karkalas is a duly-licensed medical
doctor and citizen of the Commonwealth of
Pennsylvania with a personal address of 80 Flintlock
Lane, Phoenixville, PA 19460.
19.
Defendant Brill, was at all times relevant to
this Complaint, employed by the Drug Enforcement
Agency (“DEA”) as a Diversion Investigator. Upon
information and belief, Brill was stationed out of the
DEA field office located at 100 S. Washington Avenue,
#800, Minneapolis, Minnesota 55401. Brill is sued in
her individual capacity.
20.
Defendant Marks was, at all times relevant
to this Complaint, employed as an attorney for the
Consumer Protection Branch, a section of the U.S.
Department of Justice in Washington, D.C. Marks is
sued in her individual capacity.
21.
At all times relevant to this Complaint,
defendants Marks and Brill were acting within the
course and scope of their employment with federal
investigative and law enforcement agencies.

App. 92
22.
At all times relevant to this Complaint,
defendants Marks and Brill were acting as
investigative and law enforcement officers. Although
Marks served as a prosecutor in this action, the claims
against her arise out of the actions she undertook while
acting in an investigative capacity rather than her role
as a prosecutor or advocate. Among other things,
Marks personally interviewed witnesses in this
District, met and interviewed Dr. Karkalas and
personally obtained evidence that she would use in the
prosecution of Dr. Karkalas.
23.
Defendant, United States of America, is the
appropriate defendant under the FTCA and its
investigative or law enforcement officers participated
in the unlawful investigation and prosecution of Dr.
Karkalas and the knowing presentation of false and
misleading testimony and evidence to the Grand Jury,
in violation of the Fourth and Fifth Amendments.
IV.

FACTUAL ALLEGATIONS

24.
Dr. Karkalas is a medical doctor. He never
met any of the individuals that were alleged to be his
co-conspirators. He does not know any international
criminals. Dr. Karkalas was a family practice physician
who, in addition to treating patients at his practice in
a suburb of Philadelphia, contracted with an Internet
pharmacy to review requests for prescription
medications. Based on decades of experience as a
practicing physician, he approved requests when
appropriate, denied the requests when not appropriate,
and took the trouble to alert RXL when he suspected
that prospective patients were gaming the system or
somehow attempting to commit fraud. It was clear from

App. 93
the outset that Dr. Karkalas had done nothing
improper.
25.
By way of background, Dr. Karkalas studied
biology as an undergraduate at the University of
Pennsylvania and microbiology as a graduate student
at Temple University School of Medicine. He then
earned the degree of Doctor of Medicine from Temple
University in 1980.
26.
After earning his medical degree, Dr.
Karkalas completed a three-year residency in family
practice, and shortly thereafter opened his own practice
named King of Prussia Family Practice, P.C. In or
around 1995, Dr. Karkalas opened Upper Merion
Family Practice, P.C.
27.
Dr. Karkalas took an interest in the
advantages of Internet medicine long before the events
that are involved in this case. It was during the 1990s,
in the early days of the Internet, that Dr. Karkalas
began investigating “cyber medicine.”
28.
Dr. Karkalas also served as a medical
director at Independence Blue Cross of Pennsylvania
(“IBC”), where he developed an interest in the growing
field of Internet medicine. Dr. Karkalas became a
medical director for the insurance company while still
managing a multi-physician practice and seeing
patients on a full-time basis. He maintained the
position with IBC for nine (9) years.
29.
As a medical director for an insurer of
approximately 4.5 million lives, Dr. Karkalas was
involved in policy-making, physician and hospital
credentialing, quality assurance, and utilization

App. 94
review. He had direct and indirect responsibility for
approximately 2,500 primary and specialty physicians,
and his decisions affected another 2,000 to 3,000
healthcare workers and the IBC hospital network.
30.
Moreover, during his tenure as a medical
director at IBC, Dr. Karkalas, with others, developed a
system that enabled patients to request a prescription
directly from the health insurance company without
the need to go to their primary care doctor. The patient
submitted his/her request with a simple paper
questionnaire. It was nearly identical in format and
content to the questionnaires that Dr. Karkalas later
processed online and were involved in this case. Dr.
Karkalas recognized that such practices were
advantageous for providing routine medical treatment
for patients who lacked ready access to providers.
31.
Because of his many years of experience as a
practicing physician, as a medical director of IBC, as
the innovator of a web-based prescription system, and
as an advisor to the IBC fraud and abuse unit, he
responded to a recruiter’s advertisement seeking
doctors to work with an Internet pharmacy company to
review requests for prescription medications.
32.
Dr. Karkalas responded to the request
because he believed that the future of medicine would
be positively impacted by the growth of the Internet
and he wanted to participate in a venture that was
going to do it in way that was beneficial to patients and
in accordance with all governing regulations.
33.
For example, Dr. Karkalas made certain that
all requests processed by the Internet pharmacy would

App. 95
be filled by brick-and-mortar pharmacies based in the
United States, using verifiable wholesalers of
medications from approved and legitimate
pharmaceutical manufacturers.
34.
Dr. Karkalas also participated in the design
of the online questionnaires to be used by the Internet
pharmacy to ensure: (i) collection of appropriate patient
information; and (ii) uniformity to facilitate efficient
review by a doctor.
35.
Dr. Karkalas further insisted that the
Internet pharmacy offer medications listed on a drug
formulary that he had approved, and that they not sell
any controlled substances. This action took place years
before the passage of the Online Pharmacy Consumer
Protection Act of 2008, 21 U.S.C. 831, which mandated
an in-person encounter to obtain a prescription for a
controlled substance. In doing so, it was clear that Dr.
Karkalas would not participate in a venture that
offered controlled substances.
36.
That did not present any issues because RXL
did not sell any medication that health professionals
believed to be controlled. At that time, neither Dr.
Karkalas nor any other medical or healthcare
practitioner believed that Fioricet was a controlled
medication. In fact, at no time has Fioricet ever been
listed as a controlled medication.
37.
RXL was registered as a corporation in
Delaware.
38.
As part of her background, Brill, as a DEA
Diversion Investigator, focused her investigations on
the methods by which prescription drugs are diverted

App. 96
into illegal markets. Most of Brill’s investigations
involved the diversion of prescribed substances away
from legitimate avenues of distribution, whether
through intentional misconduct or carelessness on the
part of physicians or pharmacists. The typical diversion
investigation involves an audit of a pharmacy where a
Diversion Investigator audits the number of pills of a
specific medication ordered, and then looks at how
many were prescribed to patients and how many
remain in inventory. Such audits are not factually or
legally complex.
39.
Brill, in association with others at the DEA,
was investigating RXL and believed, among other
things, that RXL was prescribing controlled substances
without the appropriate doctor-patient relationship.
One of those medications was Fioricet, even though
Brill found out during her investigation that Fioricet
had not been designated as a controlled medication by
the Food and Drug Administration.
40.
Upon information and belief, Brill brought
her investigation to the United States Attorney’s office
in Minneapolis, which declined to prosecute because of
a perceived lack of prosecutorial merit. For reasons
that are unclear, Brill then turned to the Consumer
Protection Branch, a section of the Department of
Justice in Washington, where Brill met with Marks to
persuade her to prosecute the case. Upon information
and belief, Marks had little or no criminal prosecutorial
experience in drug cases and had only brought cases
involving consumer protection, such as auto dealers
selling cars with odometer rollbacks. Marks agreed to
take on the RXL case.

App. 97
41.
After a lengthy investigation, the
Government, acting through Brill and Marks,
inexplicably alleged that RXL was part of an
“international conspiracy” to illegally distribute
prescription drugs over the internet. The Government
alleged that RXL distributed large amounts of
prescription drugs using a series of websites. They
stated that: (i) customers filled out medical
questionnaires on the websites; (ii) the questionnaires
were reviewed; and (iii) the prescriptions were written
and filled. The Government further alleged that these
practices did not comport with the requirements of
various federal statutes – namely, that the customers
and doctors did not have the necessary doctor-patient
relationship and that a controlled medication, in the
form of Fioricet, was dispensed through this process
without a valid prescription.
42.
In fact, RXL was run by Le Roux, a wealthy,
self-confessed murderer, international drug dealer,
arms trafficker and computer hacker, who oversaw a
multi-faceted international criminal enterprise. In
2012, Le Roux was arrested in Liberia and extradited
to the United States as part of a sting orchestrated by
the DEA. He quickly began to cooperate with the
Government, in relevant part, assisting with its
ongoing investigation of RXL.
43.
Le Roux pled guilty to numerous charges,
including misbranding drugs, mail and wire fraud, and
conspiracy stemming from his involvement with RXL,
on separate indictments in the Southern District of
New York. Le Roux was not a defendant in Dr.

App. 98
Karkalas’ criminal matter and the Government did not
call him as a witness at trial.
A.

The Indictment, Arrest and Detention of Dr.
Karkalas.

44.
On November 13, 2013, Dr. Karkalas was
indicted in the United States District of Minnesota and
charged with 38 counts of an 85-count indictment.
45.
In presenting the case to the Grand Jury,
Brill and Marks made false and misleading
representations, stating that Fioricet was a controlled
medication, that Dr. Karkalas was aware that Fioricet
was a controlled medication, and that he would
continue to prescribe it in the same manner that he
had. Much of the prosecution’s argument hinged on the
idea that Fioricet was classified as a controlled
medication. While one ingredient in Fioricet, namely
butalbital, was a Schedule III controlled substance,
Fioricet itself, which combines butalbital along with
caffeine and acetaminophen (Tylenol), was never
officially designated by the Food and Drug
Administration (“FDA”), which has sole authority to do
so, as a controlled medication.
46.
Dr. Karkalas was arrested at his office while
seeing patients. This was both terrifying and
humiliating, and intensely upsetting to him, his
patients and staff. Dr. Karkalas was first taken to the
Federal Detention Center (“Detention Center”) in
Philadelphia and held in a prison cell with
approximately twenty (20) others. When Dr. Karkalas
was asked how he was doing by the Detention Center’s

App. 99
psychologist when assigned a bunk, he said that he was
terrified and wanted to kill himself.
47.
At this point, Dr. Karkalas was immediately
moved to a bare cell with a concrete platform for a bed,
had all his clothes taken away, and was forced to wear
a canvas smock. The lights were on all day and night.
He was then completely ignored for several days and
was returned to a two-man cell when he promised that
he would not attempt suicide. Dr. Karkalas remained
at the Detention Center for approximately two
(2) months.
48.
Dr. Karkalas was then moved to a federal
transfer facility in Oklahoma, and placed in the general
population, where he immediately felt physically
threatened by other inmates. Within an hour of his
arrival, he was moved to another “suicide watch” cell,
similar to that in Philadelphia, and then to a two-man
cell in “special housing,” where his cellmate was a selfdescribed “violent schizophrenic.”
49.
After two (2) weeks in Oklahoma, Dr.
Karkalas was transported to Minnesota in a plane with
an estimated 250 others, all the while in wrist and leg
shackles. Once in Minnesota, Dr. Karkalas was driven
to St. Paul, where he was placed in a
federally-contracted county jail. Dr. Karkalas remained
in the St. Paul prison for approximately two (2)
months. While in St. Paul, he was moved between
units’ multiple times. Dr. Karkalas later learned this
was due to threats of random violence against him,
because he was suspected by other inmates of being a
“child molester” because of his quiet and retiring
demeanor.

App. 100
50.
Upon appeal to Judge Nelson, Dr. Karkalas
was then moved to a “half-way house” in St. Paul, over
the objections of defendant Marks, who argued that the
trial was “imminent”. To the contrary, an additional
two and a half years elapsed before the Government
was prepared to proceed. A GPS monitor was placed on
his ankle and he could not leave the premises. After
approximately six (6) weeks in the halfway house, Dr.
Karkalas was finally able to return home with the GPS
device.
51.
The GPS device caused Dr. Karkalas great
pain, and constant swelling which was documented by
the Government. Once the device was removed, the
swelling persisted, and Dr. Karkalas was left with
neuropathic pain. These symptoms persist to this day.
52.
Marks, to further isolate, punish, and harm
Dr. Karkalas, also obtained an order from Judge
Nelson preventing Dr. Karkalas from contacting family
and friends prior to trial, alleging they were to be
called as witnesses. In fact, Marks knew that she was
never going to have any of Dr. Karkalas’ friends and
family testify at his trial.
53.
Dr. Karkalas was the only physician held in
pre-trial detention. At the detention hearing, Marks
told the Court that Dr. Karkalas was involved in “an
international drug cartel, his actions had resulted in
several drug related deaths, the evidence against him
was overwhelming, and he presented a flight risk.” In
fact, none of those statements were true.
54.
There were no legitimate reasons to hold Dr.
Karkalas in pre-trial detention.

App. 101
55.
Not only was Dr. Karkalas the only physician
held in pre-trial detention, he was also the only
physician about whom a statement was released to the
press by Brill, Marks and others.
B.

Fioricet Was Not a Controlled Medication.

56.
When seeking information about medications,
including controlled substances, one of the most
authoritative and relied upon sources of information is
the Physician’s Desk Reference. The Physician’s Desk
Reference has always listed Fioricet as a non-controlled
prescription product. Dr. Karkalas regularly and
consistently relied upon the Physician’s Desk
Reference, as well as many other official sources, when
performing services as a physician and/or conducting
Internet prescription services.
57.
In addition, healthcare professionals
consistently rely on a manufacturer’s FDA-approved
package insert for its medications to identify which are
controlled, and which are not. Fioricet has never been
designated as a controlled medication.
58.
Finally, various statements and reports from
other governmental, legal, and industry sources
confirmed that Fioricet was not a controlled
medication. For example, on May 24, 2011, Michele M.
Leonhart, the Administrator of the DEA, testified
before the U.S. Senate Subcommittee on Crime and
Terrorism that Fioricet was exempt from the purview
of the CSA.
59.
Dr. Karkalas spent many hours every day
reviewing requests for medication. He reviewed each
request individually and spent a considerable amount

App. 102
of time throughout the day doing this, routinely
denying requests for cause when appropriate because
he was aware of the potential for fraud and abuse.
60.
Dr. Karkalas was investigated by the
Pennsylvania Board of Medicine (“Board”) on three (3)
separate occasions (at the behest of the DEA) and at no
time did the Board take issue with Dr. Karkalas’
prescribing activity.
61.
During this period of time, other courts
concluded without much difficulty that Fioricet was not
a controlled medication. For example, on August 4,
2016, the Honorable James E. Boasberg of the United
States District Court for the District of Columbia
dismissed counts against a pharmacist for allegedly
violating the CSA in the distribution of Fioricet without
a valid prescription. Marks was the prosecutor in that
matter. See United States of America v. Titlayo
Akintomide Akinyoyenu, 1:15-cr-00042 (D. D.C.).1
62.
Judge Boasberg concluded that the CSA
authorized the distribution of Fioricet as a
non-controlled medication, rejected the Government’s
argument, and noted that it had been “recycled” from
another case. This was approximately six (6) months
prior to the commencement of Dr. Karkalas’ trial, and
during the period of his pretrial detention and
confinement.
63.
Moreover, during this entire period,
numerous pharmacists and pharmacies continued to

1

https://ecf.dcd.uscourts.gov/doc1/04515714889

App. 103
fill online requests for Fioricet and have done so
without interruption or DOJ/DEA question.
C.

Dr. Karkalas Attempted to Explain the
Status of Fioricet to Investigators.

64.
At all times during the investigation, Dr.
Karkalas was completely open with the authorities.
When investigators came to his house and office to
conduct searches and seize his computers, he answered
their questions about the services he performed and the
process he utilized. Moreover, Dr. Karkalas engaged
with the agents and prosecutors in other ways,
including calling and emailing them. He volunteered to
travel to Washington, D.C. to attend a meeting with
Marks, Brill, and others. At that meeting, Dr. Karkalas
explained what he was doing and wanted to know why
they were conducting this investigation. During those
interviews, defendants Brill and Marks seemed
uninformed of the status of Fioricet and disinterested
in the subject. In fact, Dr. Karkalas had a discussion
with Brill outside his office, in the parking lot, wherein
he again told her that Fioricet is not a controlled
medication and Brill responded, she thought “it should
be.” At no time did Dr. Karkalas hide anything from
the investigators or try to mislead them, nor did Brill
or Marks provide Dr. Karkalas with any information
suggesting that he was incorrect in his understanding
of correct prescribing practices.
65.
Marks, presumably knowing she had a weak
case, sought to intimidate witnesses such as Dr.
Karkalas’ nurse and office manager. Marks showed up
at their homes in an effort to coerce them to testify
against Dr. Karkalas.

App. 104
66.
After the return of the indictments in
Minnesota in the RXL case, of the eleven original
defendants: (i) three pled guilty; (ii) three remained at
large; and (iii) five refused to take plea deals; namely,
Moran Oz, Lachlan McConnell, Prabhakara Tumpati,
Dr. Karkalas and Babubhai Patel.
67.
Defendants Oz, McConnell, Tumpati, and Dr.
Karkalas were tried together. Those four defendants
were charged with conspiring to distribute prescription
drugs over the Internet without valid prescriptions.
The Government painted a picture of a conspiracy, with
the defendants operating without regard for either the
laws of the United States or the safety of the public.
68.
At trial, the prosecutors immediately
encountered the original challenge that the DEA
investigators had faced at the start of the case; namely,
that the Fioricet sold by RXL was not a controlled
medication. Halfway through their own prosecution,
the Government gave up on the argument and dropped
the charges related to the illegal prescribing of
controlled substances, signaling that the case was a
sham from the beginning and should have never been
initiated by Brill, Marks and others.
69.
The jury rejected the Government’s case in its
entirety and on March 17, 2017, Dr. Karkalas, along
with the other defendants, was acquitted on all counts.
70.
The bad faith prosecution of Dr. Karkalas by
Brill and Marks caused Dr. Karkalas to be removed
from his home, kept in detention for six months, and
then placed on electronic monitoring. His medical
practice of over thirty (30) years and his professional

App. 105
reputation were completely destroyed. Further, his
incarceration prevented him from addressing critical
personal and financial issues, thus resulting in the loss
of most of his assets, including his medical building,
and caused him to suffer related tax issues. He
sustained significant nerve damage due to the
electronic monitoring. Moreover, it is unlikely that he
will ever be hired as a physician due to the negative
publicity, the destruction of his professional reputation,
and his resultant failing health. Finally, the loss of his
medical practice leaves Dr. Karkalas without adequate
financial resources to start a new practice.
71.
Marks, Brill and the Government never had
any evidence that Dr. Karkalas knew he was breaking
the law, even though violations of the CSA have a mens
rea requirement.
72.
In ruling on numerous post-trial motions,
Judge Nelson, the presiding trial judge, remarked that
the prosecution had demonstrated “a complete failure
of proof.” The flaws in the case were fundamental.
73.
In short, after a decade-long investigation,
defendants Marks, Brill, and the Government failed to
obtain a single conviction in Federal Court beyond the
defendants who simply gave up and took a guilty plea,
most of them in exchange for avoiding jail time.
74.
The prosecution of Dr. Karkalas was widely
reported in national and international media and Dr.
Karkalas was portrayed as a drug dealer, based on
press releases issued by defendants and by the DOJ.
This publicity, and the portrayal of Dr. Karkalas as a
criminal, compounded the emotional distress that he

App. 106
suffered and further damaged his respected reputation
and medical career.
75.
The malicious prosecution and the
deprivation of the basic rights of Dr. Karkalas
proximately caused harm to his professional pursuits
and career and have and will continue to have an
adverse impact on his life as a medical practitioner.
76.
The malicious prosecution of Dr. Karkalas
proximately caused harm to his professional stature
and resulted in significant emotional distress.
77.
The prosecution and related events
prejudiced, and will continue to prejudice, Dr. Karkalas
and dramatically reduce his opportunities to obtain
further professional advancement in employment,
thereby causing harm to his stature and future
earnings.
78.
The prosecution and related events prejudice
and will continue to prejudice Dr. Karkalas with
respect to his future opportunities to advance in
employment, causing harm to his stature and future
earnings. In short, Dr. Karkalas is virtually
unemployable as a physician or health care provider
and likely never again will work in his chosen
profession.
79.
As a clear result of the defendants’ actions
and conduct, Dr. Karkalas suffered from and continues
to suffer from excruciating physical pain, severe
emotional and physical trauma and distress. His
injuries also have manifested themselves physically as
clinical depression, with loss of appetite, loss of family
and friends, difficulty sleeping, and physical and

App. 107
mental exhaustion. These injuries are ongoing and
continuous and likely will continue until an indefinite
time in the future.
V.

CLAIMS

COUNT I
Federal Constitutional Claims under Bivens
80.
The actions of defendants Marks and Brill
violated Dr. Karkalas’ clearly established due process
rights and right to be free from unlawful prosecution
and unlawful seizure under the Fourth and Fifth
Amendments. This action is brought against
defendants under the United States Constitution
pursuant to Bivens v. Six Unknown Named Agents of
Federal Bureau of Narcotics, 403 U.S. 388 (1971), for
the defendants’ illegal prosecution of Dr. Karkalas, the
unlawful seizure of and the presentation of false and
misleading evidence and testimony to the Grand Jury
regarding Dr. Karkalas’ involvement with RXL.
81.
As the lead case agents and investigators,
defendants Marks and Brill initiated the prosecution of
Dr. Karkalas without probable cause and acted with
improper motives and purposes.
82.
The charges in the Indictment were entirely
false, malicious, and fabricated, and resulted directly
from the actions of Brill and Marks, who intentionally,
knowingly, and recklessly made false statements and
representations to the Grand Jury regarding the
actions and state of mind of Dr. Karkalas.
83.
The false allegations made in the Indictment
were a direct result of defendants’ actions in

App. 108
intentionally, knowingly, and/or recklessly making
false statements and representations and material
omissions of facts about Dr. Karkalas in reports and
other communications with other prosecutors and in
testimony and presentation of evidence before the
Grand Jury.
84.
The endless false statements were at the core
of the wrongdoing in the investigation of Dr. Karkalas:
their intentional, knowing and/or recklessly false
conclusions were all made without any basis to allege
that Dr. Karkalas had knowingly violated the CSA.
85.
The Fourth Amendment protects “[t]he right
of the people to be secure in their persons . . . against
unreasonable . . . seizures.” The Fourth Amendment
further prohibits Government officials from detaining
a person in the absence of probable cause. Dr. Karkalas
suffered pre-trial detention because of his wrongful
prosecution. As previously noted, Dr. Karkalas was
found not guilty on all counts.
86.
Plaintiff’s Fourth Amendment right to be free
from unreasonable seizure continued beyond the
Government’s invocation of legal process because
probable cause simply never existed. Dr. Karkalas
should never have been indicted because the
indictment was obtained upon knowingly false
presentations made by defendants to the Grand Jury.
Dr. Karkalas should never have been detained pre-trial
because the detention order was obtained upon
knowingly false representations made by defendants to
U.S. Magistrate Judge Hart. The violations of Dr.
Karkalas’ Fourth Amendment rights and Fifth
Amendment due process rights were a continuing

App. 109
violation that occurred right up until his acquittal and
release.
87.
Because of the foregoing, Dr. Karkalas was
wrongfully detained, was denied fundamental
constitutional rights, was publicly embarrassed and
humiliated, was caused to suffer severe emotional
distress, was forced to incur substantial legal expenses,
had his personal and professional reputation destroyed,
and lost his livelihood as a medical doctor.
COUNT II
Federal Tort Claims Act – Malicious Prosecution
88.
Through their actions, defendants Marks and
Brill initiated the prosecution of Dr. Karkalas without
probable cause and with malice. This constituted the
tort of malicious prosecution under the law of the
Commonwealth of Pennsylvania and the law of
Minnesota.
89.
Under the Federal Tort Claims Act,
defendant United States of America is liable for these
actions.
WHEREFORE, plaintiff, Dr. Elias Karkalas,
respectfully requests that the Court enter judgment in
his favor and against defendants and that he be
awarded compensatory and punitive damages against
defendants, attorney’s fees and costs and any other
relief that the Court deems just.

App. 110
Respectfully submitted,
ZARWIN Ë BAUM Ë DeVITO
KAPLAN Ë SCHAER Ë TODDY P.C.
/s/ DAVID F. McCOMB
David F. McComb, Esquire
dfmccomb@zarwin.com
PA Bar No. 35754
Zachary A. Silverstein, Esquire
zsilverstein@zarwin.com
PA Bar No. 316491
Samuel B. Weinstock, Esquire
sbweinstock@zarwin.com
PA Bar No. 322694
1818 Market Street, 13th Floor
Philadelphia, PA 19103
Tel. 215-569-2800
Fax. 215-569-1606
Attorneys for Plaintiff, Dr. Elias Karkalas
Dated: May 9, 2019

App. 111

APPENDIX F
IN THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-2816
[File March 25, 2021]
___________________________________
ELIAS KARKALAS,
)
)
Appellant,
)
)
V.
)
)
LINDA MARKS; KIMBERLY BRILL; )
UNITED STATES OF AMERICA
)
___________________________________ )
PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
I.

INTRODUCTION

Petitioner, Elias Karkalas requests that the Court
grant his Petition for Panel Rehearing and Rehearing
En Banc Under Fed. R. App. P. 35(b) and 40(a).
In support of this petition, counsel represents the
following:
I express a belief, based on a reasoned and
professional judgment, that the panel’s opinion
(attached as Addendum I) is contrary to the decisions
of the United States Court of Appeals for the Third

App. 112
Circuit and the Supreme Court of the United States,
and that consideration of the full court is necessary to
secure and maintain uniformity of decisions in this
court, i.e., the panel’s decision is contrary to the
decision of the United States Supreme Court in Bell
Atl. Corp. v. Twombly, 550 U.S. 544 (2007) and this
Court in Phillips v. Cty. of Allegheny, 515 F.3d 224, 231
(3d Cir. 2008), governing the pleading requirements of
a civil rights complaint and that this appeal involves a
question of exceptional importance, namely whether
properly pleaded facts in a complaint should be
considered insufficient or conclusory solely because the
plaintiff does not identify the source of his knowledge
of those facts.
Here, the panel, sua sponte, raised the sufficiency of
the complaint allegations regarding grand jury
misconduct by Brill and Marks and used that basis to
affirm the lower court’s dismissal on other grounds of
petitioner’s claims pursuant to Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403 U.S.
388 (1971) (“Bivens”) and the claims against the
government pursuant to the Federal Tort Claims Act
(“FTCA”) without considering plaintiff’s right to file an
amended pleading.
A. Facts and Procedural History
Dr. Elias Karkalas, a physician, was charged with
thirty-eight (38) felony counts in an eighty-five(85)
count indictment returned in the United States District
Court for the District of Minnesota for alleged
violations of the Controlled Substances Act, 21 U.S.C.
§801 et seq. (“CSA”), mail and wire fraud, and
international money laundering. See United States of

App. 113
America v. Berkman, et al. 0:13-cr-00273 (D. Minn.).
(A60). Following the indictment, Dr. Karkalas was
detained pending trial and then for many months made
subject to electronic monitoring which left him with
permanent nerve damage.
The charges against Dr. Karkalas, however, were
false, malicious, and entirely fabricated. The United
States Government (“Government”), acting through
defendant Kimberly Brill (“Brill”), a U.S. Drug
Enforcement (“DEA”) Investigator, and Linda Marks,
Esq. (“Marks”), a U.S. Department of Justice attorney,
alleged that Dr. Karkalas was part of a “global cartel”
that enabled United States citizens to obtain enormous
quantities of potentially addictive prescription drugs
from hundreds of linked Internet websites without a
valid doctor-patient relationship. The indictment
charged eleven people in addition to Dr. Karkalas
(“Indictment”). (A61). The case was filed in Minnesota
for no reason other than that was where Brill worked.
(A61).
Dr. Karkalas was charged with, among other things,
prescribing controlled substances without a valid
prescription. (A61). At no time, however, did Dr.
Karkalas issue prescriptions for controlled substances
as the medication he prescribed. Fioricet, has never
been designated a controlled substance. (A61).
The criminal trial against Dr. Karkalas and others
lasted several weeks and resulted in no trial
convictions. (A61). As set forth in his complaint below,
Marks and Brill either knew or recklessly disregarded
the fact that Dr. Karkalas did not violate the CSA, mail

App. 114
and wire fraud, and international money laundering
statutes. (A62).
Dr. Karkalas’ action against Brill and Marks was
brought under a Bivens theory for the defendants’
malicious prosecution and knowing presentation of
false and misleading testimony, and evidence to the
grand jury. (A62). His claims under Bivens arise out of
that conduct in violation of the Fourth and Fifth
Amendments. (A62). Thereafter, Dr. Karkalas amended
his Complaint to assert claims against the government
pursuant to the FTCA after exhausting the statute’s
administrative claim procedure.
II.

DISCUSSION

A. The Panel Misapplied or Ignored the Law in
Finding that Karkalas Failed to Plead Facts
Sufficient to Sustain His Claims.
The panel should reconsider its opinion in this case
because its basis for finding that Dr. Karkalas failed to
plead sufficient facts to state a viable cause of action is
contrary to the precedent set in Twombly and distorts
established pleading requirements.
In its opinion, the panel, sua sponte, determined
that the following allegations from Karkalas’ first
amended complaint should be disregarded as
“conclusory”:
“Defendants made knowingly false presentations to
the grand jury, namely, (i) that Fioricet is a controlled
medication, (ii) that Karkalas knew so, and (iii) that he
would continue to prescribe it.”See Opinion at
p. 9,citing (A77).

App. 115
The panel’s rationale for finding those allegations
conclusory was that “[w]ithout providing a factual basis
for his purported knowledge of the grand jury
proceedings, Karkalas’ allegations that the individual
defendants made false statements to the grand jury are
“speculative” and threadbare.” See Opinion at p. 9. The
panel then used the purported Twombly deficiency as
a basis to uphold the individual defendants’ qualified
immunity to the Bivens claims, id. at 6-8; and the
dismissal of the FTCA claims of malicious prosecution
against the government. Id. at 13-15.
It is noteworthy that at no point did the district
court nor defendants ever raise a Twombly challenge,
or otherwise contend there was a lack of notice or
clarity as to what was alleged by Dr. Karkalas.
Moreover, the purported pleading standard described
by the panel is contrary to the Twombly standard
utilized in this Circuit and elsewhere, and neither
Twombly nor subsequent decisions have ever imposed
a requirement that a pleading must specifically identify
the basis for the pleader’s knowledge of the facts.
According to the panel, however, because grand jury
proceedings are secret, Karkalas’ allegations in his
amended complaint regarding defendants’ false
presentations to the grand jury were “speculative”and
“threadbare,”and thus not plausible. Id. at 9-10.
That conclusion is simply wrong. Grand jury secrecy
is not absolute and there are many avenues for such
testimony to be disclosed. As every federal prosecutor
knows, Rule 26.2 of the Federal Rules of Criminal
Procedure requires the district court to produce, upon
request by the defendant, “any statement of the

App. 116
witness that is in their possession and that relates to
the subject matter of the witness’s testimony. . . .” The
Rule defines “statement” to include testimony before
the grand jury. See Fed. R. Crim. P. 26.2(f)(3). Such a
request was made here at trial by defendant Karkalas,
the district court ordered Brill’s grand jury testimony
produced to him, and it was no longer secret.1
Finally, even if Twombly were applicable here - and
it is not - this Court has exercised its supervisory
authority to direct that when a Twombly issue is raised
below, the party is granted leave to file an amended
pleading to remedy the perceived deficiency. But that
did not occur here, and the panel affirmed the
dismissal without ever addressing the issue.2

1

There is nothing in Fed. R. Crim. P. 6 that prevents this grand
jury testimony from being disclosed further. In fact,“[n]o obligation
of secrecy may be imposed on any person except in accordance with
Rule 6(e)(2)(B).” Fed. R. Crim. P. 6(e)(2)(A). The only limitation at
issue in this case regarding Brill’s grand jury testimony is the
protective orders issued in Karkalas’ criminal case, which only
prohibited the disclosure of personal identifiers and certain
financial information not relevant to the instant litigation. Brill’s
transcripts were redacted consistent with those orders.

2

The district court’s dismissal of petitioner’s Bivens claims was
based on its view that it lacked personal jurisdiction over Brill and
Marks, but that conclusion was abandoned on appeal by appellees.
On appeal, Brill and Marks advised the Court that they were“not
pressing” the jurisdictional issues and did not address them in
their brief. See Opinion at p.5.

App. 117
III.

ARGUMENT

A. The Panel Misapplied Twombly.
In Twombly, “the Supreme Court reaffirmed that
Fed. R. Civ. P. 8 ‘requires only a short and plain
statement of the claim showing that the pleader is
entitled to relief,’ in order to ‘give the defendant fair
notice of what the ... claim is and the grounds upon
which it rests,’” and that this standard does not require
“detailed factual allegations.””Phillips v. Cty. of
Allegheny, 515 F.3d 224, 231 (3d Cir. 2008) citing
Twombly, 127 S.Ct. at 1964. Importantly, Twombly did
not “undermine [the] principle” that all reasonable
inferences are to be drawn in favor of the plaintiff and
reaffirming that “the facts alleged must be taken as
true and a complaint may not be dismissed merely
because it appears unlikely that the plaintiff can prove
those facts or will ultimately prevail on the merits”. See
Id. at 1964–65, 1969 n.8.
Here, the panel gave no reasonable inferences in
favor of Dr. Karkalas and summarily dismissed his
allegations in the first amended complaint because of
their connection to a grand jury proceeding. While Fed.
R. Crim P. 6(e) safeguards the secrecy of grand jury
proceedings, there are a number of recognized
exceptions to that prohibition. Grand jury proceedings
are, of course, transcribed and matters occurring before
the grand jury are subject to disclosure in appropriate
circumstances, including here where a request for
grand jury testimony was made and granted pursuant
to Fed. R. Crim. P. 26.2, and the grand jury testimony
of Agent Brill and statements by DOJ attorney Marks

App. 118
were produced to Karkalas and referenced in his first
amended complaint .
In prior cases, this Court has recognized the
significance of grand jury materials in subsequent
litigation. For example, in Rose v. Bartle, 871 F.2d 331
(3d Cir. 1989),a decision relied upon by the panel in its
opinion, the Court permitted a civil rights claim based
on grand jury misconduct to go forward and remanded
the matter with the instruction that the district court
grant plaintiff leave to file an amended complaint to
assert with greater specificity the alleged misconduct
that occurred before the grand jury. Id. at 355-356.
Moreover, the panel’s reliance on the First Circuit’s
Penalbert-Rosa decision makes little sense here, as that
court found that “specific information, even if not in the
form of admissible evidence, would likely be enough at
this stage; pure speculation is not.” Penalbert-Rosa v.
Fortuno-Burset, 631 F.3d 592, 596 (2011).3 Likewise,
the panel’s citation at page 6 of its Opinion to Connelly
v. Lane Construction Corp., 809 F.3d 780 (3d Cir. 2016),
does not in any way support its analysis. In Connelly,
the Court remanded a discrimination matter where the
district court misapplied Twombly noting that:
Twombly and Iqbal distinguish between legal
conclusions, which are discounted in the

3

In Penalbert-Rosa the Court found that “there was nothing in the
complaint beyond raw speculation to suggest that the named
defendants [the governor of Puerto Rico, his chief of staff, and
administrator of governor's mansion] participated—either as
perpetrators or accomplices—in the decision to dismiss” appellant.
Id. at 594-95.

App. 119
analysis, and allegations of historical fact, which
are assumed to be true even if ‘unrealistic or
nonsensical,’ ‘chimerical,’ or ‘extravagantly
fanciful.’ Iqbal, 556 U.S. at 681, 129 S.Ct. 1937.
Put another way, Twombly and Iqbal expressly
declined to exclude even outlandish allegations
from a presumption of truth except to the extent
they resembled a “formulaic recitation of the
elements of a ... claim” or other legal conclusion.
Id. at 789-90.
Here, Dr. Karkalas did not make threadbare and
conclusory legal statements of the type criticized by the
Twombly decisions. Rather, he asserted fact-based,
specific allegations relating to statements made to the
grand jury by DEA Diversion Investigator Brill and
DOJ Attorney Marks that, if proven true, are sufficient
to establish Dr. Karkalas’ Bivens claims and FTCA
claims of malicious prosecution.
This Court has never held that the sufficiency of a
pleading requires the identification of all sources of the
information. Even if the Court were inclined to adopt
that view -- notwithstanding the absence of anything in
the Twombly cases supporting it -- any such deficiency
in the pleading should be addressed by directing the
filing of an amended complaint, not a dismissal with
prejudice. See, e.g., Grayson. v Mayview State Hospital,
293 F.3d 103,108 (3d Cir. 2002) (court must inform
party of right to amend unless amendment would be
inequitable or futile).

App. 120
B. The Panel Misapplied the Controlled Substances
Act.
One of the principal issues raised in the underlying
litigation was whether Fioricet was a controlled
substance that could be prescribed only following an inperson examination by a physician. The Panel’s
decision is virtually silent on that issue.
By way of background, while some medications,
such as Viagra and Propecia, may be dispensed only
when a physician issues a prescription, they are not
controlled medications within the meaning of the CSA,
and such prescriptions can be issued following an
online or telephonic consultation with a physician.
On the other hand, because of the greater possibility
for abuse, controlled substances - many of which are
narcotic and opiate-based, require an in-person
physician examination before a prescription can issue.
Controlled substances range from Schedule I for
substances like heroin, with no legitimate medical
treatment and which never can be prescribed, to
Schedule V medications commonly prescribed for pain
relief. See 21 USC § 812(c).
The distinction is critical. Under the CSA, only the
Attorney General is authorized to add a drug to the
schedules of controlled substances, and only subject to
the approval of the Secretary of Health and Human
Services and the FDA. See 21 USC § 811(a).4 That

4

The Attorney General may “exempt” prescription drugs
containing controlled substances from any part of the CSA if she
finds that the drug, by incorporating non-controlled substances,

App. 121
designation constitutes an important bright line for
practitioners, regulators and law enforcement. A
medication is designated as a controlled substance - or
it is not. DEA agents and prosecutors cannot exercise
discretion as to what medications they personally
believe should be listed as controlled substances. The
CSA as well as common sense do not permit such a
result. Moreover, a thirty (30) second Google search
will disclose what substances are controlled and which
are not.
For these reasons, it is perplexing that the panel
concluded that both individual defendants “believed
that, under federal law Fioricet constituted a controlled
substance because it contained butalbital.” See Op. at
p. 3. The panel does not explain how it reached such a
conclusion given that Fioricet is not listed as a
controlled substance, and the first amended complaint
stated that the DEA administrator testified before
Congress that Fioricet is not a controlled substance.
(A73).
Further, the first amended complaint alleges that
after Karkalas told Brill that Fioricet is not a controlled
medication, Brill responded that “it should be.”’ (A73).
These allegations set forth an adequate basis, at
this stage in the litigation, that Brill knew that Fioricet
was not, in fact, a controlled substance but nonetheless
pursued an investigation and testified falsely that
“vitiate[s] t he potential for abuse” of the controlled substance. Id.
§ 811(g)(3)(A). Fioricet is exempted as a combination drug, see 21
C.F.R. § 1308.32, and https://www.deadiversion.usdoj.gov/schedules
/exempt/exempt_rx_list.pdf.

App. 122
Fioricet was a controlled substance and in doing so
obtained an indictment against Karkalas for illegally
prescribing a controlled substance. Rehearing is
necessary to reconcile this misapplication of the law.
C.

The Court Misapprehended the Applicability
of Qualified Immunity.

The individual defendants are not entitled to
qualified immunity as they knew from their numerous
conversations with him that: (1) Dr. Karkalas never
had the requisite mens rea for a violation of the CSA;
and (2) Fioricet was never a controlled substance. The
CSA has a mens rea requirement,5 and as pleaded in
the first amended complaint Karkalas consistently
asserted that Fioricet was not a controlled substance
and that his online prescribing was legal. (A67). By
defendants’ own admission, Dr. Karkalas voluntarily
travelled to Washington D.C. and met with Brill and
Marks and asserted his belief that Fioricet was not a
controlled substance within the meaning of the CSA.
(A179).
The panel nevertheless concluded that “testimony
that is incorrect or simply disputed should not be
treated as fabricated merely because it turns out to
have been wrong,” in finding that the individual
defendants were entitled to qualified immunity. See
Op. at p. 13.
However, there is no dispute based on the pleadings
that Dr. Karkalas believed that his prescribing of
5

See McFadden v. United States, 576 U.S. 186, 192, 135 S. Ct.
2298, 2304 (2015).

App. 123
Fioricet was legal. Given Appellant’s detailed and wellpleaded allegations demonstrating that he believed his
prescribing of Fioricet was legal, and individual
defendants’ knowledge of the same, defendants are not
protected by qualified immunity, particularly at this
stage of the proceedings. A contrary conclusion is sadly
ironic, namely that a federal prosecutor and a DEA
Diversion Investigator simply do not know how to
determine what substances are controlled, and such a
“mistake” by them carries no consequences even when
it results in such enormous harm.
IV.

CONCLUSION

Appellant, Dr. Elias Karkalas, respectfully requests
that the Court grant his petition for rehearing or
rehearing en banc.
Respectfully Submitted,
SAMUEL B. WEINSTOCK
COOPERSCHALL & LEVY
2000 Market Street, 1400
Philadelphia, Pennsylvania
19103
(610) 668-5484
sbweinstock@zarwin.com

/S/DAVID F. MCCOMB
DAVID F. MCCOMB
ZACHARY A. SILVERSTEIN
ZARWIN BAUM DEVITO
KAPLAN SCHAER TODDY P.C.
One Commerce Square
2001 Market Street, 13thFloor
Philadelphia, Pennsylvania
19103
(215) 569-2800
dfmccomb@zarwin.com
zsilverstein@zarwin.com
Attorneys for
Plaintiff-Appellant

